APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Sixth Circuit
(March 3, 2020) . . . . . . . . . . . . . . . App. 1
Appendix B Order Lifting the Stay and Granting
County Defendants’ Motion to Dismiss
in the Southern District of Ohio
Western Division
(November 15, 2018) . . . . . . . . . . App. 31
Appendix C Judgment in a Civil Case in the
Southern District of Ohio Western
Division
(November 15, 2018) . . . . . . . . . . App. 51
Appendix D Order Granting County Defendants’
Motion to Stay Proceedings, Granting
Children’s Defendants’ Motion to
Dismiss, and Denying Plaintiffs’
Motions to File Supplemental
Memoranda
(August 2, 2018) . . . . . . . . . . . . . App. 53
Appendix E Order Denying Rehearing in the
United States Court of Appeals for the
Sixth Circuit
(April 23, 2020) . . . . . . . . . . . . . . App. 76

App. 1

APPENDIX A
RECOMMENDED FOR PUBLICATION
Pursuant to Sixth Circuit I.O.P. 32.1(b)
File Name: 20a0066p.06
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No. 18-4179
[Filed: March 3, 2020]
_____________________________________________
JOSEPH SIEFERT; MELISSA SIEFERT,
)
Plaintiffs-Appellants,
)
v.
)
)
HAMILTON COUNTY; BOARD OF
)
HAMILTON COUNTY
)
COMMISSIONERS; HAMILTON
)
COUNTY DEPARTMENT OF JOB AND
)
FAMILY SERVICES; MOIRA WEIR;
)
ERIC YOUNG; RACHEL BUTLER;
)
CINCINNATI CHILDREN’S HOSPITAL
)
MEDICAL CENTER; JENNIFER BOWDEN, M.D.;
)
KIMBERLEY STEPHENS, LISW;
)
ANKITA ZUTSHI, M.D.; DANIEL
)
ALMEIDA, M.D.; SUZANNE SAMPANG, M.D.;
)
LAUREN HEENEY,
)
Defendants-Appellees.
)
_____________________________________________)

App. 2
Appeal from the United States District Court
for the Southern District of Ohio at Cincinnati.
No. 1:17-cv-00511—Timothy S. Black, District Judge.
Argued: June 27, 2019
Decided and Filed: March 3, 2020
Before: SILER, BATCHELDER, and DONALD,
Circuit Judges.
_________________
COUNSEL
ARGUED: Ted L. Wills, Cincinnati, Ohio, for
Appellants. Andrea B. Neuwirth, HAMILTON
COUNTY PROSECUTOR’S OFFICE, Cincinnati, Ohio,
for Hamilton County Appellees. Jason R. Goldschmidt,
DINSMORE & SHOHL, LLP, Cincinnati, Ohio, for
Cincinnati Children’s Hospital Appellees. ON BRIEF:
Ted L. Wills, Cincinnati, Ohio, for Appellants. Andrea
B. Neuwirth, Jerome A. Kunkel, HAMILTON
COUNTY PROSECUTOR’S OFFICE, Cincinnati, Ohio,
for Hamilton County Appellees. Jason R. Goldschmidt,
J. David Brittingham, DINSMORE & SHOHL, LLP,
Cincinnati, Ohio, for Cincinnati Children’s Hospital
Appellees.
SILER, J., delivered the opinion of the court in
which BATCHELDER, J., joined, and DONALD, J.,
joined in part. DONALD, J. (pp. 19–20), delivered a
separate opinion dissenting in part.

App. 3
_________________
OPINION
_________________
SILER, Circuit Judge. When Joseph and Melissa
Siefert’s child started experiencing suicidal thoughts,
anxiety, and depression, they sought help. After first
trying medication, they took their teenage
child—known here as “Minor Siefert”—to Children’s
Hospital just outside of Cincinnati. Eventually, Minor
Siefert ended up at a Children’s psychiatry facility, and
after about a week, the Sieferts’ insurance company
determined that Minor Siefert had no medical
problems, so it denied further coverage.
Coverage terminated, the Sieferts decided to bring
their child home. But they ran into a problem: doctors
and social workers had none of it. Over the next four
weeks, the Sieferts wrangled with the hospital and
county about getting their child back. Only after the
Sieferts signed a voluntary safety plan did the child
leave the facility. The Sieferts sued the county and its
employees, as well as the hospital and its doctors,
alleging a violation of the Fourteenth Amendment Due
Process Clause’s procedural and substantive
components. The district court dismissed the hospital
defendants because they were not state actors, and it
dismissed the county defendants because it said the
Sieferts failed to overcome qualified immunity.
But “[e]ven a temporary deprivation of physical
custody requires a hearing within a reasonable time.”
Eidson v. Tenn. Dept. of Children’s Servs., 510 F.3d
631, 635 (6th Cir. 2007). And at litigation’s starting

App. 4
line, the Sieferts only had to plausibly allege a due
process violation and that the hospital may be
considered a state actor for purposes of this litigation.
Today we decide only these narrow questions, and we
side with the Sieferts on some and the defendants on
others. Whether Defendants ultimately prevail on all
claims—at summary judgment or at trial—is best left
for another day. We affirm in part, reverse in part, and
remand.
I.
We take the facts only from the complaint,
accepting them as true as we must do in reviewing a
Rule 12(b)(6) motion. Fed. R. Civ. P. 12(b)(6). The
Sieferts have five children, one of whom is the center of
this case. Minor Siefert was born a girl but identifies
now as a transgender boy. Minor Siefert began taking
medication and going through therapy in November
2015 after reporting problems with depression, anxiety,
and suicidal thoughts. After telling his parents about
his transgender identity, Minor Siefert emailed
Hamilton County Job and Family Services claiming his
parents were not supportive and that their conduct
amounted to abuse.
That is when county officials stepped in. Rachel
Butler, a Job and Family Services employee, came to
the Sieferts’ home to talk on the same day of Minor
Siefert’s email. Three days later, acting at the behest of
their pediatrician, the Sieferts took their child to
Children’s Hospital in Liberty Township, Ohio. The
next day, Minor Siefert was sent to the Children’s
College Hill psychiatry facility where the Sieferts

App. 5
consulted with Job and Family Services employees
about Minor Siefert’s treatment.
During a meeting with the Sieferts, Butler
explained that Children’s would not send Minor Siefert
home without Job and Family Services’ approval. And
that would not occur, Butler told the Sieferts, until
social workers were satisfied they found the right place
for Minor Siefert to go. After a week or so, Children’s
employees arranged a new discharge meeting for
November 22, 2016. During that meeting, Kimberly
Stephens, a Children’s employee, told the Sieferts that
nothing could be done at that time because Butler did
not attend the meeting. Stephens said they would have
to reschedule and told the Sieferts to leave.
That same day, Dr. Ankita Zutshi presented Minor
Siefert’s case to a doctor with Humana Behavioral
Health, which was covering Minor Siefert’s treatment.
The Humana board-certified psychiatrist concluded
that Minor Siefert had “no acute symptoms that
require 24 hour care,” and that Minor Siefert was not
a danger to himself or others, was not aggressive, was
medically stable and was not manic. So, Humana
denied additional coverage.
The next day, Mr. Siefert began calling Children’s
staff members and leaving voice messages to “exercise
his parental right to custody and association with
Minor Siefert.” During this time, Job and Family
Services was actively pursuing the case, but did not
attempt to obtain a court order for custody or provide
the Sieferts with a hearing. In his calls to Children’s
employees, Mr. Siefert sought “to have Minor Siefert
discharged from Children’s to the parents.” Mr. Siefert

App. 6
also called Butler, and two of her supervisors at Job
and Family Services, in an attempt to have his child
discharged, but no one returned his calls. At the same
time, Dr. Zutshi ordered that Minor Siefert was “not to
be discharged AMA [against medical advice] on request
of parents.”
All the while, Butler and Stephens had their own
telephone calls. Butler told Stephens that the “parents
could not take [Minor Siefert] back home.” Then,
Stephens spoke with Mr. Siefert by phone. And when
Mr. Siefert told Stephens he wanted Minor Siefert
discharged, Stephens said the child could not go home
and that Mr. Siefert would have to contact Job and
Family Services to get Minor Siefert out of the hospital.
During this same time, Dr. Daniel Almeida (at
Children’s) wrote that “JFS gave clear
recommendations to not allow patient to be discharged
to parents.”
Then came the November 28 meeting. It included
Mr. and Mrs. Siefert and Stephens; Butler participated
by telephone. When Mr. Siefert asked how to get his
child discharged, Butler responded, “It does not work
that way,” and that when the Sieferts cannot care for
their child the county must “step in.” Butler hung up
the phone a short while later, and the Sieferts
“demanded to Ms. Stephens that Minor Siefert be
discharged.” But when Mr. Siefert said he could go
down the hall and take the child home, Stephens
responded that the Sieferts were not allowed to do so.
At that point, Lauren Heeney, with Children’s, joined
the meeting and told the Sieferts that they could not
even visit their child.

App. 7
Unsatisfied with the meeting, Mr. Siefert decided to
email Hamilton County Administrator Jeff Aluotto the
next day. This led to another meeting—this time at the
Job and Family Services building in Cincinnati; Butler,
the Sieferts and Eric Young (with Job and Family
Services) attended. Young explained that Job and
Family Services had to investigate and would prevent
parents from having custody or association with their
child when doctors or social workers did not approve
the child’s release. Young put it succinctly: “we have to
go by what the doctors say.”
And the doctors had made it clear. Dr. Almeida
ordered that Minor Siefert should not be discharged on
the Sieferts’ request and that if Mr. and Mrs. Siefert
came around “security also needs to be called.” More
than a week later, Minor Siefert remained hospitalized,
and county representatives Young and Butler told
Stephens of Children’s that the child “could not go
home.” Dr. Jennifer Bowden ordered on December 9
that Children’s staff continue “collaboration with JFS”
to deny the Sieferts custody and association with Minor
Siefert. Three days later, Stephens told the Sieferts
that “JFS holds the key in determining where [the]
patient goes at this time.”
Finally, Minor Siefert left Children’s on December
20, 2016—nearly a month after entering. The release
occurred after the county and the Sieferts entered a
voluntary safety plan requiring Minor Siefert to stay
with his grandparents. The Sieferts filed this lawsuit
under 42 U.S.C. § 1983, alleging that the county,
Children’s, and their employees violated the Sieferts’
procedural and substantive due process rights under

App. 8
the Fourteenth Amendment. The district court
dismissed the case on a Rule 12(b)(6) motion to dismiss.
This appeal followed.
II.
Our review of a 12(b)(6) dismissal includes no
deference to the district court. Wesley v. Campbell, 779
F.3d 421, 428 (6th Cir. 2015). This de novo review puts
us in the same position as the lower court and requires
us to examine whether the complaint contains “enough
facts to state a claim to relief that is plausible on its
face.” Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570
(2007). Plausible allegations exist “when the plaintiff
pleads factual content that allows the court to draw the
reasonable inference that the defendant is liable for the
misconduct alleged.” Ashcroft v. Iqbal, 556 U.S. 662,
678 (2009). The factual allegations need not be overly
detailed, but nor can they merely recite the elements of
a cause of action and make a “the-defendant-did-it”
allegation. See id.
III.
Defendants fall into two categories: (1) the county
defendants, and (2) the hospital defendants. The
former argue that qualified immunity blocks this suit,
and the hospital employees say that constitutional
claims do not apply to them because they are not state
actors. We begin with state action.
State Action and Hospital Defendants. The
Fourteenth Amendment, like most of the Constitution,
places limits on government behavior and has little to
say about what private parties must do. See Lugar v.
Edmondson Oil Co., Inc., 457 U.S. 922, 923-24 (1982).

App. 9
After all, “the Due Process Clause protects individuals
only from governmental and not from private action,”
id. at 930, “no matter how unfair that conduct may be.”
NCAA v. Tarkanian, 488 U.S. 179, 191 (1988). But, like
many things in law, this principle comes with
exceptions. Sometimes, non-government actors must
comply with constitutional commands. See Lugar, 457
U.S. at 937.
When does this occur? Courts have highlighted
several “tests,” but it all comes down to “whether
‘there is such a close nexus between the State and the
challenged action that seemingly private behavior may
be fairly treated as that of the State itself.’” Brent v.
Wayne Cty. Dept. of Human Servs., 901 F.3d 656, 676
(6th Cir. 2018) (quoting Brentwood Acad. v. Tenn.
Secondary Sch. Athletic Ass’n, 531 U.S. 288, 295
(2001)).
The district court held that no such relationship
existed here because (1) Children’s was “simply
performing medical treatment and complying with
Ohio reporting statutes,” and (2) Children’s had no
contract with the state, did not perform a state
function, and the state did not approve Children’s
policies in advance.
But Children’s did far more than what the district
court acknowledged. According to the complaint, which
we take as true, Children’s and Hamilton County
worked in tandem. Often collaborating and
communicating about Minor Siefert’s situation, they
depended on each other to block Minor Siefert’s release.
Children’s admitted it needed the county’s permission
to send Minor Siefert home. Meetings at Children’s

App. 10
often included the Sieferts, Children’s employees, and
county officials together. Children’s employees told the
Sieferts they could not discharge Minor Siefert without
talking to Hamilton County employees. Indeed, when
the Sieferts demanded that Children’s discharge Minor
Siefert, Stephens (of Children’s) “told Mr. Siefert that
he would have to contact HCJFS to attempt to obtain
Minor Siefert’s discharge,” because discharge “was
being blocked by JFS.” County defendants had,
according to the complaint, “told Ms. Stephens that
Minor Siefert ‘could not go home.’” Stephens relayed
that message to the Sieferts, telling them “JFS holds
the key in determining where patient goes.”And in his
notes, Dr. Almeida wrote that Children’s could not
release Minor Siefert because “JFS gave clear
recommendations to not allow patient to be discharged
to parents.”
What is more, county employees told the Sieferts
they had to “go by what the doctors say.” The doctors
had said “that Minor Siefert was not to be discharged
‘on request of parents,’” but the county had told the
hospital that the “parents could not take [Minor
Siefert] home.” And both county and Children’s
employees agreed to discuss placing Minor Siefert in a
foster home.
These facts plausibly establish Children’s stateactor status because the conduct was “fairly
attributable to the state.” Filarsky v. Delia, 566 U.S.
377, 383 (2012). This “close nexus” developed as
Children’s and the county remained in constant
contact, relied on each other for keeping Minor Siefert
at the hospital, and at various times gave the Sieferts

App. 11
conflicting statements about who would make the
ultimate decision to discharge Minor Siefert. In telling
Children’s it could not discharge Minor Siefert without
its consent, county defendants also gave “significant
encouragement, either overt or covert” to Children’s
actions. Blum v. Yaretsky, 457 U.S. 991, 1004 (1982).
Plus, Children’s cooperation with Hamilton County
shows it was a “willful participant in joint activity with
the State or its agents.” Brentwood Acad., 531 U.S. at
296 (quoting Lugar, 457 U.S. at 941).
It is of course true “that the mere fact that a
hospital is licensed by the state is insufficient to
transform it into a state actor.” Kottmyer v. Maas, 436
F.3d 684, 688 (6th Cir. 2006). And the district court
was correct that hospitals and doctors do not become
state actors merely because they comply with state
statutes. See Ellison v. Garbarino, 48 F.3d 192, 195-96
(6th Cir. 1995). So if that were all Children’s had
done—or all the Sieferts had alleged in their
Complaint—then Children’s could prevail at the
12(b)(6) stage. But the Sieferts present specific factual
allegations, detailing a deep and symbiotic relationship
between Children’s and the county. From the Sieferts’
perspective, it would have been hard to know who could
discharge Minor Siefert—Hamilton County or
Children’s. And when the distinction between the state
and private party breaks down to that degree, a private
party becomes a state actor in § 1983 cases. See
Brentwood Acad., 531 U.S. at 296-97.
All this means today is that the Sieferts have
alleged enough facts to keep Children’s in this lawsuit.
Iqbal, 556 U.S. at 678. But a “plaintiff[’s] ability to

App. 12
survive a motion to dismiss with respect to the stateactor question does not necessarily mean that they
could survive summary judgment.” Brent, 901 F.3d at
677. The Sieferts have unlocked the door to discovery,
not to liability. And in the end, Children’s may show
that it was not a state actor. But at this point, it is too
soon to know.
We REVERSE the district court’s holding that the
Sieferts failed to plausibly allege that Children’s and
its employees were state actors.
Constitutional Violations and Qualified
Immunity. Qualified immunity, pleading
requirements, and Rule 12(b)(6) have a complicated
relationship. At times, we have said that courts should
refrain from using qualified immunity at the motion-todismiss stage. See Wesley, 779 F.3d at 433. After all,
qualified immunity is an affirmative defense, not an
element of a cause of action. See Crawford-El v.
Britton, 523 U.S. 574, 586-87 (1998). And Federal Rule
of Civil Procedure 8(a) requires only that a plaintiff
state a claim, not that a plaintiff show that he can
overcome an affirmative defense. See Jones v. Bock, 549
U.S. 199, 212 (2007); Cataldo v. U.S. Steel Corp., 676
F.3d 542, 547 (6th Cir. 2012).
We have also said that the fact-intensive nature of
qualified immunity makes it often a bad fit for Rule
12(b)(6). See Guertin v. State, 912 F.3d 907, 917 (6th
Cir. 2019). That’s because, at this point in the case,
“the precise factual basis for the plaintiff’s claim or
claims may be hard to identify,” meaning “the court’s
task can be difficult.” Kaminski v. Coulter, 865 F.3d
339, 344 (6th Cir. 2017) (quoting Pearson v. Callahan,

App. 13
555 U.S. 223, 238-39 (2009)). Without more than the
complaint to go on, the court “cannot fairly tell whether
a case is ‘obvious’ or ‘squarely governed’ by precedent,”
making qualified immunity inappropriate. Guertin, 912
F.3d at 917 (quoting Evans-Marshall v. Bd. of Educ. of
Tipp City Exempted Vill. Sch. Dist., 428 F.3d 223, 235
(6th Cir. 2005) (Sutton, J., concurring)). So one might
say that “Rule 12(b)6) is a mismatch for immunity and
almost always a bad ground of dismissal.”Jacobs v. City
of Chicago, 215 F.3d 758, 775 (7th Cir. 2000)
(Easterbrook, J., concurring); see also Reed v. Palmer,
906 F.3d 540, 548-49 (7th Cir. 2018) (explaining that
qualified immunity usually will rarely be the basis for
a 12(b)(6) dismissal); Keates v. Koile, 883 F.3d 1228,
1234 (9th Cir. 2018) (same). Like in our sister circuits,
here it is “generally inappropriate for a district court to
grant a 12(b)(6) motion to dismiss on the basis of
qualified immunity.” Courtright v. City of Battle Creek,
839 F.3d 513, 518 (6th Cir. 2016) (quoting Wesley, 779
F.3d at 433).
But this is only a “general preference,” not an
absolute one. Guertin, 912 F.3d at 917. Defendants may
raise the qualified immunity defense in response to a
12(b)(6) motion because it is “an immunity from suit
rather than a mere defense to liability.” Pearson, 555
U.S. at 231 (quoting Mitchell v. Forsyth, 472 U.S. 511,
526 (1985)). That is why some claims must “be resolved
prior to discovery.” Id. at 231-32 (quoting Anderson v.
Creighton, 483 U.S. 635, 640 n.2 (1987) (emphasis
added)).
Thus, despite the general preference to save
qualified immunity for summary judgment, sometimes

App. 14
it’s best resolved in a motion to dismiss. This happens
when the complaint establishes the defense. Peatross
v. City of Memphis, 818 F.3d 233, 240 (6th Cir. 2016);
see also Behrens v. Pelletier, 516 U.S. 299, 309 (1996).
So we ask whether the complaint plausibly alleges
“that an official’s acts violated the plaintiff’s clearly
established constitutional right.” Heyne v. Metro.
Nashville Pub. Sch., 655 F.3d 556, 563 (6th Cir. 2011).
If, taking all the facts as true and reading all
inferences in the plaintiff’s favor, the plaintiff has not
plausibly showed a violation of his clearly established
rights, then the officer-defendant is entitled to
immunity from suit. See Pearson, 555 U.S. at 232.
Procedural Due Process. States cannot “deprive
any person of life, liberty, or property, without due
process of law.” U.S. Const. amend. XIV. To sue under
this clause, the Sieferts must have a liberty or property
interest that triggers the process requirement, and
then they must show they received insufficient process.
The Sieferts argue that Defendants infringed on
their rights to the care, custody, and control of Minor
Siefert. And, the Sieferts claim, the Defendants did so
without providing any process. That runs afoul of the
Due Process Clause, the Sieferts claim, because the
parent-child relationship enjoys deep and broad
protections—and they got none.
When it comes to parents and their children, courts
are in unison: the “relation gives rise to a liberty
interest that a parent may not be deprived of absent
due process of law.” Kottmyer, 436 F.3d at 689. The
Supreme Court has called parents’ “care, custody, and
control of their children . . . perhaps the oldest of the

App. 15
fundamental liberty interests recognized by this
Court.” Troxel v. Granville 530 U.S. 57, 65 (2000)
(plurality opinion). This right is “far more precious
than [any] property right[].” Lassiter v. Dep’t of Soc.
Servs., 452 U.S. 18, 38 (1981) (Blackmun, J.,
dissenting) (editing mark omitted) (quoting May v.
Anderson, 345 U.S. 528, 533 (1953)). “Even when blood
relationships are strained, parents retain a vital
interest in preventing the irretrievable destruction of
their family life.” Santosky v. Kramer, 455 U.S. 745,
753 (1982). Procedural safeguards also apply when the
state engages in a “temporary deprivation of physical
custody” of a child. Eidson., 510 F.3d at 635.
But these rights are not absolute. They are “limited
by an equal[ly] compelling governmental interest in the
protection of children, particularly where the children
need to be protected from their own parents.” Kottmyer,
436 F.3d at 690. That’s because states “have a
‘traditional and transcendent interest’ in protecting
children within their jurisdiction from abuse.” Id.
(quoting Maryland v. Craig, 497 U.S. 836, 855 (1990)).
Defendants argue that their interest in protecting
Minor Siefert outweighs procedural protections the
Sieferts would otherwise receive. They claim that the
Sieferts’ situation did not spark procedural
requirements because (1) Defendants were
investigating possible abuse, (2) Defendants never took
legal custody of Minor Siefert, (3) the Sieferts
voluntarily consented to hospitalization, and (4) the
Sieferts never physically tried to remove their child.
And, at the very least, Defendants argue, the Sieferts’

App. 16
due process rights were not clearly established, so
qualified immunity blocks this lawsuit.
These consent-and-abuse-investigation rationales,
however, clash with the procedural posture of the case.
Yes, consent extinguishes constitutional procedural
safeguards. See Smith v. Williams-Ash (Williams-Ash
II), 520 F.3d 596, 600 (6th Cir. 2008). That is because
“hearings are required for deprivations taken over
objection, not for steps authorized for consent.” Id.
(quoting Dupuy v. Samuels, 465 F.3d 757, 761-62 (7th
Cir. 2006)). And, yes, factual development might
ultimately show that the Sieferts consented to Minor
Siefert’s hospitalization. But now is not a time for
examining competing facts—it is a time for accepting
the complaint’s facts as true and drawing all
reasonable inferences in the plaintiffs’ favor. Doing so
does not establish the Sieferts’ consent.
The complaint says that the Sieferts made
numerous attempts to remove Minor Siefert from the
hospital: voicemail messages, emails, and direct
statements to hospital and county employees. Plus,
several paragraphs describe how Defendants told the
Sieferts that their child could not go home. A
reasonable inference in the Sieferts’ favor is that
Defendants continued to explain that Minor Siefert
could not go home because the parents wanted their
child home. The district court’s recognition that the
Sieferts “did not allege . . . that they made written
demands for [Minor Siefert’s] release,” does not
establish consent. The Sieferts did not have to so plead
because showing a lack of consent is not an element of
the claim. Instead, whether the Sieferts consented is a

App. 17
fact-based question reserved for summary judgment or
later in the case.
Nor does Williams-Ash II help Defendants. See 520
F.3d at 600. There, Hamilton County Job and Family
Services removed the plaintiffs’ children from the home
without a hearing. Id. at 597-98. We held that the
parents had consented because they entered a
voluntary safety plan, so the parents were due no
process. Id. at 600. But that decision occurred at
summary judgment. Id. at 599. And, in fact, when the
case had previously come before us at the motion-todismiss stage, we focused solely on the complaint in
holding that the plaintiffs had adequately pleaded a
procedural due process violation because “plaintiffs
were not allowed to recover their children after the
Safety Plan had been initiated despite their best efforts
to do so.” Smith v. Williams-Ash (Williams-Ash I) 173
F. App’ 363, 366 (6th Cir. 2005) (per curiam). The
defendants argued that the Safety Plan showed the
plaintiffs’ consent, but we held that “the complaint
alleges that the continued deprivation of the
[plaintiffs’] children was involuntary, and that they
were effectively denied a prompt hearing.” Id.
(emphasis added). Only after factual development did
it become clear—in Williams-Ash II—that plaintiffs
had consented, and defendants were entitled to
summary judgment. See Williams-Ash II, 520 F.3d at
599-600.
Here, too, the district court should have judged the
complaint only. Id. Just as in Williams-Ash II consent
may become clear at summary judgment. But reading
the complaint’s facts in the light favorable to the

App. 18
Sieferts, we can draw a reasonable inference that the
Sieferts did not consent, given the number of times
they allege they demanded that Minor Siefert be
discharged.
A similar complaint-focused analysis impedes
Defendants’ abuse investigation argument. Although,
“[m]ere investigation by authorities into child abuse
allegations without more . . . does not infringe upon a
parent’s right to custody or control of a child,”
Kottmyer, 436 F.3d at 691, the Sieferts’ complaint does
not allege “[m]ere investigation . . . without more.” Id.
Indeed, the complaint makes a single reference to
abuse: Minor Siefert “alleged that [Mr. and Mrs.
Siefert] were not supportive and that their conduct
towards her amounted to abuse.” And then the
complaint alleges more—specifically that Defendants
refused to discharge Minor Siefert for nearly a month
while the Sieferts sought to have access to their child.
This is in stark contrast to Kottmyer, where the
plaintiffs only allegation was that the defendants
“initiated an investigation” into abuse allegations. Id.
In that case there was “no allegation that [the child]
was removed from her parents’ [] custody, either
temporarily or permanently, or that the [defendant] or
Hamilton County in any way interfered with the
Kottmyers’ [] right to custody, control and
companionship of their daughter.” Id. Kottmyer teaches
that an abuse investigation, standing alone, does not
interfere with parental rights in a way that requires
due process. Id. But if the parents were not “permitted
to remove [their child] from the hospital until
[defendants] allowed” that could “in some
circumstances . . . interfere with parental custody of a

App. 19
child.” Id. at 691 n.2. That is this case: The Sieferts
took Minor Siefert to the hospital but later demanded
discharge. Thus, reading the complaint in the light
most favorable to the Sieferts, they have alleged a
plausible claim that Defendants interfered with their
parental rights and they received no process.
Even so, could this all be “clearly established” to get
around qualified immunity? This standard extends
broadly to “all but the plainly incompetent or those who
knowingly violate the law.” District of Columbia v.
Wesby, 138 S. Ct. 577, 589 (2018) (quoting Malley v.
Briggs, 475 U.S. 335, 341 (1986)). A plaintiff can clear
this high hurdle only when every reasonable official
would know his conduct was unlawful as established by
“‘controlling authority’ or ‘a robust consensus of cases
of persuasive authority.’” Id. at 589-90 (quoting
Ashcroft v. al-Kidd, 563 U.S. 731, 741-42 (2011)). And
the unlawfulness must be obvious “in the particular
circumstances before” the official. Id. at 590. General
statements of the law and abstract rules fail to provide
the high-level of specificity necessary to create clearly
established law. Id.
So it must be clear that Defendants’ actions in this
particular circumstance—as alleged in the
complaint—violated the Sieferts’ due process rights.
Plausibly, they did. In case after case, the Supreme
Court has emphasized the parent-child relationship’s
special place in our society. See, e.g., Troxel, 530 U.S. at
65-66 (collecting cases). The right’s importance means
that “[e]ven a temporary deprivation of physical
custody requires a hearing within a reasonable time.”
Eidson 510 F.3d at 635. A hearing is necessary when “a

App. 20
child’s removal is . . . sustained over the parent’s
objections.” Young v. Vega, 574 F. App’ 684, 691 n.6
(6th Cir. 2014). And when state officials do not allow
parents to remove a child from the hospital until the
defendants say so, that can “be construed to interfere
with parental custody of a child.” Kottmyer, 436 F.3d at
691 n.2; see also Williams-Ash II, 520 F.3d at 600-01
(concluding if a parent revokes consent to a safety plan,
the state must provide due process); Kottmyer, 436 F.3d
at at 691 (“[P]arents will not be separated from their
children without due process of law except in
emergencies.” (quoting Mabe v. San Bernardino Cty.
Dep’ of Pub. Soc. Servs., 237 F.3d 1101, 1107 (9th Cir.
2001)); Williams-Ash I, 173 F. App’x at 366 (explaining
“temporary deprivation of physical custody requires a
hearing within a reasonable time”); Doe v. Staples, 706
F.2d 985, 988 (6th Cir. 1983) (noting “it is axiomatic
that a parent has a liberty interest in the freedom of
personal choice in matters of family life in which the
state cannot interfere”). Out-of-circuit cases—so-called
“persuasive authority”—reinforce the point. See, e.g.,
Keates, 883 F.3d at 1238-39 (holding aren’t plausibly
pled constitutional violation where social worker held
a parent’s daughter at the hospital and did not allow
mother to take the child home); Phifer v. City of New
York, 289 F.3d 49, 61 (2d Cir. 2002) (“[W]here a parent
voluntarily grants temporary custody to the
government or a third party, which then refuses to
release the child, ‘the State has the duty to initiate a
prompt post-deprivation hearing after the child has
been removed from the custody of his or her parents.’”
(quoting Kia P. v. McIntyre, 235 F.3d 749, 760 (2d Cir.
2000))).

App. 21
In short, when Minor Siefert was hospitalized,
“existing precedent . . . placed the . . . constitutional
question beyond debate.” al-Kidd, 563 U.S. at 741. At
least, that is, according to the complaint. Defendants
argue that the Sieferts cannot overcome qualified
immunity because no case says that parents deserve
due process when they voluntarily hospitalize their
child, the state investigates allegations of abuse, and
the parents consent to the ongoing hospitalization. But
characterizing the case this way puts the cart before
the horse. The complaint does not establish the depth
of abuse allegations or that the Sieferts consented to
Minor Siefert’s ongoing hospitalization. The complaint
says the Sieferts routinely demanded that Minor
Siefert be discharged. And the complaint alleges that
the Sieferts’ insurance company had a psychiatrist
determine that Minor Siefert was no harm to anyone
and was medically stable.
We REVERSE the district court’s holding that the
Sieferts failed to adequately plead a violation of their
procedural due process rights.
Substantive Due Process. We cannot say the same
regarding the Sieferts’ substantive due process claim.
Under this doctrine, the government may not deprive
individuals of certain rights, regardless of the
procedures used. Guertin, 912 F.3d at 918. Sometimes,
this court has said that this component of the
Fourteenth Amendment comes in two varieties:
“(1) deprivations of a particular constitutional
guarantee; and (2) actions that ‘shock the conscience.’”
Pittman v. Cuyahoga Cty. Dept. of Children and Family
Servs., 640 F.3d 716, 728 (6th Cir. 2011) (quoting Valot

App. 22
v. Se. Local Sch. Dist. Bd. of Educ., 107 F.3d 1220,
1228 (6th Cir. 1997)). And other times, the court has
suggested both prongs are required. See Am. Express
Travel Related Servs. Co., Inc. v. Kentucky, 641 F.3d
685, 688 (6th Cir. 2011); see also Guertin, 912 F.3d at
922.
Most recently, however, we have held that when we
review a substantive due process claim, we first ask
whether the plaintiff has shown “a deprivation of a
constitutionally protected liberty interest”and then ask
whether “the government’s discretionary conduct that
deprived that interest was constitutionally repugnant.”
Id. (citing Am. Express Travel Related Servs. Co., 641
F.3d at 688). “Thus, a plaintiff must show as a
predicate the deprivation of a liberty or property
interest,” as well as “conscience-shocking conduct.” Id.
The Sieferts adequately allege that they were
deprived of the “fundamental liberty interest in the
care, custody, control, companionship, and
management of [Minor Siefert.]” The question
therefore—not addressed by the district court—is
whether the Sieferts adequately pleaded that the
Defendants engaged in conscience-shocking behavior.
Otherwise, they have failed to state a substantive due
process claim.
What counts as “conscience shocking” is not always
so clear. See County of Sacramento v. Lewis, 523 U.S.
833, 847 (1998) (“[T]he measure of what is conscience
shocking is no calibrated yard stick.”). But “abuse of
power” serves as the North Star in the analysis.
Guertin, 912 F.3d at 923. We view the behavior “on a
spectrum,” with negligence on one end, and intentional

App. 23
harm on the other. Id. Those cases are easy: negligent
behavior fails to shock the conscience, but intentional
harm does. Id. “[I]n the middle,” there is “something
more than negligence but less than intentional conduct,
such as recklessness or gross negligence,” which
presents more difficult cases. Id. (quoting Lewis, 523
U.S. at 849). But always, courts should “prevent
transforming run-of-the-mill tort claims into violations
of constitutional guarantees,” id., because “the
Fourteenth Amendment is not a font of tort law to be
superimposed upon whatever systems may already be
administered by the States,” Lewis, 523 U.S. at 848
(quotation marks omitted).
The Sieferts never argue that Defendants intended
to inflict harm. And the complaint alleges nothing of
the sort. Thus, the Sieferts can prevail only by showing
that Defendants acted with deliberate indifference
under the more-than-negligence-but-less-thanintentional standard. And context informs whether
such a claim shocks the conscience. Guertin, 912 F.3d
at 923. That’s because the court’s “concern with
preserving the constitutional proportions of substantive
due process demands an exact analysis of
circumstances before any abuse of power is condemned
as conscience shocking.” Lewis, 523 U.S. at 850.
We must consider “whether the circumstances
allowed the state actors time to fully consider the
potential consequences of their conduct.” Guertin, 912
F.3d at 924 (quoting Ewolski v. City of Brunswick, 287
F.3d 492, 510 (6th Cir. 2002)). Deliberation time alone
does not always mean actions rise to the conscienceshocking level. Id. It is one factor in a “focus . . . upon

App. 24
the entirety of the situation—‘the type of harm, the
level of risk of the harm occurring, and the time
available to consider the risk of harm are all necessary
factors in determining whether an official was
deliberately indifferent.’” Id. (quoting Range v.
Douglas, 763 F.3d 573, 591 (6th Cir. 2014)).
Consideration of both the “nature of the relationship
between the government and the plaintiff, and whether
a legitimate government purpose motivated the
official’s act,” also helps courts decide whether the
official’s act amounted to deliberate indifference. Id.
Indeed, a defendant’s action in support of legitimate
governmental purpose will often not lay the
groundwork for a substantive due process claim even if
the defendant acted “despite a subjective awareness of
substantial risk of serious injury.” Id.
The Sieferts’ allegations do not rise to the “high” bar
of deliberately indifferent, conscience-shocking
behavior. Range, 763 F.3d at 589. First, the Sieferts
never allege in their complaint that the Defendants
acted without any governmental purpose. And courts
have long recognized a “compelling governmental
interest in the protection of children, particularly
where the children need to be protected from their own
parents.” Kottmyer, 436 F.3d at 690. The Sieferts do
say that Defendants had nearly a month to deliberate,
but they do not allege that during that time the
Defendants acted with indifference toward the Sieferts’
fundamental liberty interest in family integrity.
Guertin, 912 F.3d at 926. “Deliberate indifference in
the constitutional sense requires that the officials knew
of facts from which they could infer a ‘substantial risk
of serious harm,’ that they did infer it, and that they

App. 25
acted with indifference ‘toward the individual’ rights.’”
Range, 763 F.3d at 591 (emphases added). Hence, the
Sieferts’ complaint alleges that the defendants acted
with only a “subjective recklessness” toward a
“substantial risk of serious injury.”Guertin, 912 F.3d at
926.
The Sieferts moreover fail to allege that the
Defendants acted with deliberately indifferent conduct
that shocks the conscience. Again, the relevant inquiry
is “whether [a] government actor was pursuing a
legitimate governmental purpose[,]” Range, 763 F.3d at
590, and whether that interest outweighed the
deprivation of the parental liberty interest in this
instance. See Kottmeyer, 436 F.3d at 690 (“The
[fundamental liberty interest in family integrity] is
limited by an equal[ly] compelling governmental
interest in the protection of children, particularly
where the children need to be protected from their own
parents.”). Based on the facts as alleged in the
complaint, these Defendants were between a rock and
a hard place: they could either ensure that the parents
were not deprived of their fundamental liberty interest
and risk failing to protect the child if the allegations of
abuse were legitimate, or they could ensure that the
minor child was protected from alleged abuse and risk
depriving the parents of their liberty interest. Even if
we disagree with the choice the Defendants made, we
cannot say that when faced with that choice, the
Defendants’ opting to err on the side of protecting the
child at the expense of depriving the parents of their
parental rights for a period of a month is conduct that
shocks the conscience. Thus, the complaint fails to
establish behavior that shocks the conscience, so we

App. 26
AFFIRM he district court’s holding that the Sieferts
failed to state a claim under substantive due process.
Monnell Claims. The Sieferts’ claims against the
county entities must fail under Monell v. Department
of Social Services of the City of New York, 436 U.S. 658
(1978). The Sieferts point to no official policy or custom
by the county, and they fail to show the county ratified
any unconstitutional behavior. See Burgess v. Fischer,
735 F.3d 462, 478 (6th Cir. 2013). Nor do the Sieferts
allege facts that the county failed to train or was
deliberately indifferent. Id. Under the failure-to-train
theory, the Sieferts had to plead “(1) a clear and
persistent pattern of illegal activity, (2) which the
[county] knew or should have known about, (3) yet
remained deliberately indifferent about, and (4) that
the [county’s] custom was the cause of the deprivation
of [the Sieferts’ constitutional rights.” Bickerstaff v.
Lucarelli, 830 F.3d 388, 402 (6th Cir. 2016). The
Sieferts allege none of that, and so their Monell claims
fail.
Conspiracy Claims. A § 1983 civil conspiracy
claim requires “(1) a ‘single plan’ existed,
(2) [defendants] ‘shared in the general conspiratorial
objective’ to deprive [plaintiffs] of [their]
constitutional . . . rights, and (3) ‘an overt act was
committed in furtherance of the conspiracy that caused
injury’ to [plaintiffs].” Bazzi v. City of Dearborn, 658
F.3d 598, 602 (6th Cir. 2011) (quoting Hooks v. Hooks,
771 F.2d 935, 944 (6th Cir. 1985)). But there are no
facts in the complaint alleging that any such
agreement existed. And no facts suggest that the
parties had an objective to deprive the Sieferts of their

App. 27
constitutional rights. Id. Yes, county employees and
doctors from Children’s worked together, but nowhere
do the Sieferts allege that the Defendants agreed to do
anything—let alone agreed to violate constitutional
rights. Id. Even if the Sieferts make a plausible
procedural due process claim, there are no factual
allegations that the parties “agreed to the general
conspiratorial objective of violating [the Sieferts’]
constitutional rights.” Id. at 603. And “it is well-settled
that conspiracy claims must be pled with some degree
of specificity.” Heyne, 655 F.3d at 563 (editing mark
omitted). None is alleged here.
The same is true of the state law conspiracy claim,
which requires “a malicious combination of two or more
persons to injure another in person or property, in a
way not competent for one alone, resulting in actual
damages.” Kenty v. Transamerica Premium Ins. Co.,
650 N.E.2d 863, 866 (Ohio 1995) (quoting LeFort v.
Century 21-Maitland Realty Co., 512 .E.2d 640, 645
(Ohio 1987)). A combination is “malicious” only if one
acts with a “state of mind under which a person does a
wrongful act purposely, without a reasonable or lawful
excuse, to the injury of another.” Chesher v. Neyer, 477
F.3d 784, 805 (6th Cir. 2007) (quoting Williams v.
Aetna Fin. Co., 700 N.E.2d 859, 868 (Ohio 1998)). As in
the federal claims, there are no specific factual
allegations suggesting that the Defendants ever
entered into an agreement—let alone one with
malicious intent. So, the Sieferts fail to plausibly allege
civil conspiracy under state law.

App. 28
IV.
State intervention in family life—even if for a short
period—typically requires due process of law. Of
course, sometimes the state need not provide process,
such as when parents give consent. That may be this
case. But at the pleading stage, the Sieferts are entitled
to all reasonable inferences. That goes for their claim
that the Children’s defendants are state actors, too. So
this case should continue on procedural due process
grounds, and “the district court can consider both the
state actor and § 1983 issues at summary judgment.”
Brent, 901 F.3d at 678. We AFFIRM in part,
REVERSE in part, and REMAND.
________________________
DISSENTING IN PART
_________________________
BERNICE BOUIE DONALD, Circuit Judge,
dissenting in part. While I agree with most of the
majority’s analysis, I would reverse the district court’s
holding that the Sieferts failed to state a claim under
substantive due process.
As the majority points out, there are two categories
of substantive due process claims: those alleging a
“deprivation of a particular constitutional guarantee”
and those alleging actions that “shock the conscience.”
Op. at 16 (citing Pittman v. Cuyahoga Cty. Dep’t of
Children & Family Servs., 640 F.3d 716, 728 (6th Cir.
2011)). In Pittman, however, we clarified that we apply
different standards to those two types of claims. Id.
Where the plaintiff does not assert the deprivation of a

App. 29
particular constitutional guarantee, we review the
claim under the shock the conscience standard. Id. at
728 n.6. In contrast, where a plaintiff does assert a
deprivation of a particular constitutional
guarantee—such as that alleged here, deprivation of
familial association—we analyze whether “the
[challenged] action [was] necessary and animated by a
compelling purpose.”Id. at 728-29 (quoting Bartell v.
Lohiser, 215 F.3d 550, 557-58 (6th Cir. 2000)).
I believe the district court correctly determined that
the Sieferts premise their substantive due process
claim on the deprivation of their right to familial
association. See Appellant’s Br. at 24 (“HCJFS and
Children’s continued to prohibit the Sieferts from
custody and association with Minor Siefert.”); Id. at 23
(“Ms. Heeney, accordingly, prohibited the Sieferts from
obtaining custody and association with Minor Siefert.”);
Id. at 33 (“In this case, the Sieferts have already
established that the Sieferts suffered a deprivation of
a constitutional right based on the denial of their
liberty interest in family integrity.”). Because the
Sieferts’ claim is based on the deprivation of their right
to familial association, I believe we must analyze it
under the standard applicable to particularconstitutional-guarantee claims. That the Sieferts
argue an erroneous legal standard in their briefing
does not mean that this Court should not analyze their
claim under the correct one.
The Sieferts allege that the defendants interfered
with their right to associate with their child for over
four weeks. Under the particular-constitutionalguarantee standard, we have suggested that similar

App. 30
conduct could constitute a substantive due process
violation. See e.g., Kottmyer v. Maas 436 F.3d 684, 691
(6th Cir. 2006) (suggesting that an “allegation that [a
child] was removed from her parents’ [sic] custody,
either temporarily or permanently, or that the [the
government] in any way interfered with the [parents’]
right to custody, control and companionship of their
[child]” could constitute a violation of the parents’ right
to familial association (footnote omitted)). Therefore,
contrary to the majority, I would reverse the district
court with respect to this claim as well.

App. 31

APPENDIX B
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF OHIO
WESTERN DIVISION
Case No. 1:17-cv-511
Judge Timothy S. Black
[Filed: November 15, 2018]
______________________________________
JOSEPH SIEFERT, et al.,
)
)
Plaintiff,
)
)
vs.
)
)
HAMILTON COUNTY
)
BOARD OF COMMISSIONERS, et al.,
)
)
Defendants.
)
______________________________________ )
ORDER LIFTING THE STAY AND
GRANTING COUNTY DEFENDANTS’
MOTION TO DISMISS
This civil action is before the Court upon the County
Defendants’1 motion to dismiss Plaintiff’s complaint
1

The “County Defendants” are Hamilton County, Hamilton
County Board of Commissioners, Hamilton County Job and Family
Services (“HCJFS”), Moira Weir, Eric Young, and Rachel Butler.

App. 32
(Doc. 12) and the parties’ responsive memoranda (Docs.
19 and 22).
On August 2, 2018, the Court issued an Order
granting the Children’s Defendants’2 motion to dismiss
and granting the County Defendants’ motion to stay
proceedings. (Doc. 32). Plaintiffs and County
Defendants have informed the Court that the state
proceedings requiring abstention under Younger are
completed. (See Docs. 33 and 34). Accordingly, the
Court hereby lifts the stay and will now examine
County Defendants’ pending motion to dismiss.
I.

FACTS AS ALLEGED BY THE PLAINTIFF

For purposes of this motion to dismiss, the Court
must: (1) view the complaint in the light most favorable
to Plaintiffs; and (2) take all well-pleaded factual
allegations as true. Tackett v. M&G Polymers, 561 F.3d
478, 488 (6th Cir. 2009).
Plaintiffs Joseph and Melissa Siefert are residents
of Ohio and the parents of Minor Siefert.3 (Id. at ¶ 4).
The Court notes that, under Ohio law, HCJFS and Hamilton
County are not sui juris and therefore cannot be sued. Estate of
Glenara Bates v. Hamilton Cty. Dep’ of Job & Family Servs., No.
1:15-cv-798, 2017 WL 106871, at *1 n.1 (S.D. Ohio Jan. 11, 2017).
2

The “Children’s Defendants,” who have been terminated as
defendants, are Cincinnati Children’s Hospital Medical Center
(“Children’s”), Jennifer Bowden, M.D., Kimberly Stephens, LISW,
Ankita Zutshi, M.D., Daniel Almeida, M.D., Suzanne Sampang,
M.D., and Lauren Heeney.

3

Due to privacy concerns regarding the child at issue, Plaintiffs’
child will be referred to as “Minor Siefert.”

App. 33
Plaintiffs allege that from November 23, 2016 to
December 20, 2016, they were denied their
fundamental liberty interest in the care, custody,
control, companionship, and management of Minor
Siefert, as guaranteed by the Fourteenth Amendment.
(Id. at ¶¶ 96, 127).
In November 2015, the Plaintiffs learned that Minor
Siefert was suffering from depression, anxiety, and
suicidal ideations. (Id. at ¶ 24). The Plaintiffs had their
longtime pediatrician treat Minor Siefert with
medication and therapy. (Id. at ¶¶ 24, 29). On August
11, 2016, Minor Siefert informed Plaintiffs that Minor
Siefert considered themselves to be a transgender
child. (Id. at ¶ 25). Minor Siefert emailed HCJFS on
November 11, 2016 and informed HCJFS that they
were experiencing transgender thoughts and that
Plaintiffs were unsupportive and abusive. (Id. at ¶ 26).
On that same day, Defendant Butler of HCJFS visited
Plaintiffs’ home and asked Mrs. Siefert questions
regarding conditions in the home. (Id. at ¶ 28). On
November 13, Plaintiffs took Minor Siefert to
Children’s Liberty Township location for psychological
evaluation regarding suicidal ideations. (Id. at ¶ 30).
Minor Siefert was ultimately transferred to Children’s
psychiatry facility at the College Hill location.
Plaintiffs went to visit Minor Siefert at Children’s
College Hill facility on November 15, and received a
welcome package that included information regarding
Children’s policies and guidelines. (Id. at ¶¶ 36–37).
The Children’s hospital policy provided to Plaintiffs
includes a grievance process for handling
disagreements with the hospital regarding issues of
treatment and discharge. (Doc. 12, Ex. B – Children’s

App. 34
Hospital Policy).4 Plaintiffs allege that the welcome
packet did not include a nineteen-page document titled
“Psychiatry Impatient Admission, A Family Guide,”
which stated that Children’s could tell parents that
they were not to take their child home if Children’s
found it unsafe for the child. (Id. at ¶¶ 38–39).
Plaintiffs allege that they were not told of this policy at
the time Minor Siefert was admitted. (Id. at ¶ 40).
Over the next few weeks, Plaintiffs consulted with
HCJFS regarding Minor Siefert’s treatment. (Id. at
¶41). At Plaintiffs’ first conference with Defendant
Butler, she allegedly explained to Plaintiffs that
Children’s would not send Minor Siefert home without
permission from HCJFS, and if Plaintiffs could not
take care of Minor Siefert, HCJFS “would step in and
do it.”(Id. at ¶ 42). Plaintiffs claim they did not “agree
to allow [Children’s] and HCJFS to keep Minor Siefert
at Children’s without their consent.” (Id. at ¶ 47).
On November 22, a Children’s doctor met with a
doctor from Humana Behavioral Health (“Humana”),
4

In determining the sufficiency of the complaint, the Court’s
review is confined to “the pleadings, exhibits attached to or
addressed in the complaint, documents included with a motion to
dismiss if referenced in the complaint, and public records.”
Vandenheede v. Vecchio, 541 F. App’x 577, 579 (6th Cir. 2013)
(citing Rondigo, LLC. v. Twp. of Richmond, 641 F.3d 673, 680– 81
(6th Cir. 2011)). The Court may consider documents integral to or
attached to the pleadings when ruling on a Rule 12 motion to
dismiss without converting the motion to one for summary
judgment. Commercial Money Ctr., Inc. v. Ill. Union Ins. Co., 508
F.3d 327, 336 (6th Cir. 2007). The Court will consider the
Children’s Hospital Policy because it is referenced by Plaintiffs in
the complaint and is integral to this motion to dismiss.

App. 35
the insurance provider for Minor Siefert’s treatment, to
discuss Minor Siefert’s case. (Id. at ¶¶ 46, 51). Based on
the meeting with the doctor, Humana determined that
Minor Siefert “had no acute symptoms that require 24
hour care (sic) . . . [Minor Siefert] is not a danger to
[Minor Siefert] or others. [Minor Siefert] is not
aggressive. [Minor Siefert] is medically stable. [Minor
Siefert] is not manic.” Based on this finding, Humana
denied coverage for further treatment of Minor Siefert
by Children’s. (Id. at ¶ 52).
On that same day, Plaintiffs met with Children’s
regarding Minor Siefert’s discharge. Plaintiffs allege
that Butler and Minor Siefert were supposed to attend
the meeting, however Children’s told Plaintiffs that
Butler would not be available until November 28. (Id.
at ¶¶ 53–54). Plaintiffs complain that Butler was
available and was in regular telephone contact with
Children’s and met with Minor Siefert on November 23.
(Id. at ¶¶ 55–57).
Plaintiffs contend that starting November 23, Mr.
Siefert began leaving voicemail messages with
Children’s and left calls with HCJFS attempting to
have Minor Siefert discharged from Children’s to the
Plaintiffs. (Id. at ¶¶ 60, 61). Eventually, Kimberly
Stephens of Children’s spoke with Mr. Siefert by
telephone and informed him that Minor Siefert could
not be discharged because Minor Siefert was not
“medically cleared” and that Mr. Siefert would have to
contact HCJFS to obtain Minor Siefert’s discharge. (Id.
¶¶ 64–65). Plaintiffs allege that on that same day,
Children’s doctor wrote in his notes that HCJFS “gave
clear recommendations to not allow patient to be

App. 36
discharged to parents.” (Id. at ¶ 67). While HCJFS
allegedly told Plaintiffs that it was “actively pursuing”
the case throughout the relevant time period, HCJFS
never attempted to obtain a court order of custody. (Id.
at ¶ 59).
On November 28, Plaintiffs, HCJFS, and Children’s
held another meeting to discuss Minor Siefert’s
discharge. (Id. at ¶¶ 69–77). During this meeting, Mr.
Siefert asked what the Plaintiffs had to do to have
Minor Siefert discharged, and Butler responded, “[i]t
does not work that way,” and that when Plaintiffs
cannot take care of their child, HCJFS has to “step
in.”(Id. at ¶¶ 71–72). In response, Mr. Siefert allegedly
demanded that Minor Siefert be discharged and argued
that he could go down the hall and take Minor Siefert
home, but Children’s informed the Plaintiffs that that
was not allowed. (Id. at ¶ 74).
Plaintiffs had another meeting with Butler and
Young of HCJFS on November 30. (Id. at ¶¶ 87–91).
Young allegedly explained HCJFS’s policy preventing
parents from having custody or association with their
children when Children’s or HCJFS does not approve
of releasing the child to the parents, even without the
parents’ consent or a court order, and that HCJFS has
to “go by what the doctors say.” (Id. at ¶ 90).
Ultimately, Minor Siefert did not leave Children’s until
December 20, 2016 when HCFJS and Plaintiffs entered
into a voluntary “Safety Plan” releasing Minor Siefert
to the child’s maternal grandparents. (Id. at ¶ 96).

App. 37
Plaintiffs claim that the County Defendants
violated their procedural and substantive due process
rights and violated federal and state civil conspiracy
laws. Plaintiffs seek compensatory and punitive
damages, as well as injunctive relief.
II.

STANDARD OF REVIEW

A motion to dismiss pursuant to Fed. R. Civ. P.
12(b)(6) operates to test the sufficiency of the complaint
and permits dismissal of a complaint for “failure to
state a claim upon which relief can be granted.” To
show grounds for relief, Fed. R. Civ. P. 8(a) requires
that the complaint contain a “short and plain
statement of the claim showing that the pleader is
entitled to relief.”
While Fed. R. Civ. P. 8 “does not require ‘detailed
factual allegations,’. . . it demands more than an
unadorned, the-defendant-unlawfully-harmed-me
accusation.” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009)
(citing Bell Atl. Corp. v. Twombly, 550 U.S. 544 (2007)).
Pleadings offering mere “‘labels and conclusions’ or ‘a
formulaic recitation of the elements of a cause of action
will not do.’” Id. (citing Twombly, 550 U.S. at 555). In
fact, in determining a motion to dismiss, “courts ‘are
not bound to accept as true a legal conclusion couched
as a factual allegation[.]’” Twombly, 550 U.S. at 555
(citing Papasan v. Allain, 478 U.S. 265 (1986)).
Further, “[f]actual allegations must be enough to raise
a right to relief above the speculative level[.]” Id.
Accordingly, “[t]o survive a motion to dismiss, a
complaint must contain sufficient factual matter,
accepted as true, to ‘state a claim to relief that is

App. 38
plausible on its face.’” Iqbal, 556 U.S. at 678. A claim is
plausible where a “plaintiff pleads factual content that
allows the court to draw the reasonable inference that
the defendant is liable for the misconduct alleged.” Id.
Plausibility “is not akin to a ‘probability requirement,’
but it asks for more than a sheer possibility that a
defendant has acted unlawfully.” Id. “[W]here the wellpleaded facts do not permit the court to infer more than
the mere possibility of misconduct, the complaint has
alleged—but it has not ‘show[n]’—‘that the leader is
entitled to relief,’” and the case shall be dismissed. Id.
(citing Fed. R. Civ. P. 8(a)(2)).
III.

ANALYSIS

Plaintiffs assert five causes of action, claiming that
the County Defendants: (1) violated 42 U.S.C. § 1983
by depriving Plaintiffs of their Fourteenth Amendment
procedural due process rights (Count I); (2) violated 42
U.S.C. § 1983 by depriving Plaintiffs of their
Fourteenth Amendment procedural substantive due
process rights (Count II); (3) committed federal civil
conspiracy (Count III); (4) committed Ohio civil
conspiracy (Count IV); and (5) violated Plaintiffs’
Fourteenth Amendment Due Process Clause and
should be enjoined from any further such conduct
(Count V). The County Defendants have moved to
dismiss all claims.
1. § 1983 Claims
“To state a claim under § 1983, a plaintiff must
allege the violation of a right secured by the
Constitution and laws of the United States, and must
show that the alleged deprivation was committed by a

App. 39
person acting under color of state law.” Gray v. City of
Detroit, 399 F.3d 612, 615 (6th Cir. 2005). Here, there
is no dispute that the County Defendants were acting
under color of state law, only whether Plaintiffs’ were
deprived of their rights to procedural and substantive
due process.
a. Qualified Immunity
County Defendants argue that Defendants Moria
Weir, Eric Young, and Rachel Butler are entitled to
qualified immunity in their individual capacities.
“The doctrine of qualified immunity protects
government officials ‘from liability for civil damages
insofar as their conduct does not violate clearly
established statutory or constitutional rights of which
a reasonable person would have known.’” Pearson v.
Callahan, 555 U.S. 223, 231 (2009) (quoting Harlow v.
Fitzgerald, 457 U.S. 800, 818 (1982)). “Qualified
immunity balances two important interests – the need
to hold public officials accountable when they exercise
power irresponsibly and the need to shield officials
from harassment, distraction, and liability when they
perform their duties reasonably. The protection of
qualified immunity applies regardless of whether the
government official’s error is a ‘mistake of law, mistake
of fact, or a mistake based on mixed questions of law
and fact.’” Id.
Plaintiffs bear the burden of showing both that
(1) County Defendants violated Plaintiffs constitutional
right and (2) the right was clearly established at the
time of the violation. Saucier v. Katz, 533 U.S. 194, 201
(2001). District courts may exercise discretion in

App. 40
deciding which of the two prongs should be addressed
first in a qualified immunity analysis. See Pearson, 555
U.S. at 236.
In order to defeat qualified immunity, “a plaintiff
must identify a case with a similar fact pattern that
would have given “fair and clear warning to officers”
about what the law requires.” White v. Pauly, ––– U.S.
––––, 137 S.Ct. 548, 552, 196 L.Ed.2d 463 (2017)
(quotation omitted). Ultimately, Plaintiffs fail to plead
that County Defendants violated their clearly
established procedural or substantive due process
rights.
b. Procedural Due Process
To establish a violation of their procedural due
process rights, Plaintiffs must how “(1) that [they] was
deprived of a protected liberty or property interest, and
(2) that such deprivation occurred without the requisite
due process of law.” Club Italia Soccer & Sports Org.,
Inc. v. Charter Twp. of Shelby, Mich., 470 F.3d 286, 296
(6th Cir. 2006) (citing Thomas v. Cohen, 304 F.3d 563,
576 (6th Cir. 2002)). “[D]ue process requires that when
a State seeks to terminate [a protected] interest ..., it
must afford ‘notice and opportunity for hearing
appropriate to the nature of the case’ before the
termination becomes effective.” Bell v. Burson, 402 U.S.
535, 542 (1971) (quoting Mullane v. Cent. Hanover
Bank & Trust Co., 339 U.S. 306, 313 (1950)).
Plaintiffs claim the County Defendants violated
their right to familial association in violation of
procedural due process. “There is no doubt that under
the constitution, the parent-child relation gives rise to

App. 41
a liberty interest that a parent may not be deprived of
absent due process of law.” Kottmyer v. Maas, 436 F.3d
684, 689 (6th Cir. 2006). The Supreme Court has found
that a parent has a constitutional right to maintenance
of a parent-child relationship as a parent’s “desire for
and right to the companionship, care, custody and
management of his or her children is an interest far
more precious than any property right.” Lassiter v.
Department of Social Services, 452 U.S. 18, 27 (1981).
However, a parent’s right to maintenance of a parentchild relationship is limited by “an equaling compelling
governmental interest in the protection of children,
particularly where the children need to be protected
from their own parents.” Kottmyer, 436 F.3d at 690.
Therefore, “although parents enjoy a constitutionally
protected interest in their family integrity, this interest
is counterbalanced by the compelling governmental
interest in the protection of minor children,
particularly in circumstances where the protection is
necessary as against the parents themselves.” Id.
(quoting Wilkinson ex rel. Wilkinson v. Russell, 182
F.3d 89, 104 (2d Cir. 1999)).
Here, the County Defendants argue that dismissal
of Plaintiffs claim is appropriate because (1) the
government’s interest in Minor Siefert’s safety
outweighed the Plaintiff’s liberty interest and (2) the
Plaintiffs’ provided implied consent to the continued
hospitalization of Minor Siefert.
“A parent is necessarily deprived of his or her right
to custody and control of their child, either
permanently or temporarily, when a child is removed
from the home.” Kottmyer, 436 F.3d at 691. “Notice and

App. 42
an opportunity to be heard are necessary before
parental rights can be terminated.” Anh v. Levi, 586
F.2d 625, 632 (6th Cir. 1978). “Mere investigation by
authorities into child abuse allegations without more,
however, does not infringe upon a parent’s right to
custody or control of a child.” Kottmyer, 436 F.3d at
691.
The Court considers three factors in determining
whether County Defendants have violated Plaintiffs’
procedural due process rights: (1) “the private interest
that will be affected by the official action;”(2) “the risk
of an erroneous deprivation of such interest through
the procedures used and the probable value, if any, of
additional or substitute procedural safeguards;” and
(3) “the Government’s interest, including the function
involved and the fiscal and administrative burdens
that the additional or substitute procedural
requirements would entail.” Mathews v. Eldridge, 424
U.S. 319, 335 (1976).
Under the first Mathews factor, the Court must
consider the private interests of Plaintiffs affected by
the hospitalization of Minor Siefert. Although Plaintiffs
have a strong interest in maintaining familial
association with Minor Siefert, Plaintiffs did not lose
custody over Minor Siefert during the relevant time
period, Plaintiffs voluntarily took Minor Siefert to
Children’s at their pediatricians’ urging, and Children’s
allowed Plaintiffs to visit Minor Siefert if the child
consented.
Regarding the third Mathews factor, the
government clearly has a strong interest in protecting
children who are at risk. Here, it is undisputed that

App. 43
Minor Siefert reported to HCJFS that Minor Siefert
was being abused by the Plaintiffs; that Minor Siefert
suffered from depression, anxiety, and suicidal
ideation; and that Children’s doctors had found that
Minor Siefert was not “medically cleared” to be
discharged. (Doc. 1 at ¶¶ 24, 26, 65). Therefore, County
Defendants had a strong interest in protecting Minor
Siefert.
Under the second Mathews factor, the Court must
consider the risk of erroneous deprivation through the
procedures used. “[T]he state must provide clear and
effective procedures in ensuring that a parent’s interest
in their children is not unduly obstructed.” Smith v.
Williams-Ash, 2006 WL 3716782, *5 (S.D. Ohio Dec. 14,
2006).
There is no dispute that Minor Siefert was
voluntarily admitted to Children’s on November 13,
2016. (Doc. 1 at ¶¶ 30–32). Plaintiffs do not allege that
County Defendants had legal custody or attempted to
obtain legal custody of Minor Siefert during the time in
question. However, Plaintiffs contend that they were
prevented from having Minor Siefert discharged from
Children’s starting on November 23, 2016 until
December 20, 2016 when the Plaintiffs and HCJFS
entered into a voluntary safety plan giving Minor
Siefert’s grandparents custody of the child. (Id. at
¶ 96). Plaintiffs were allegedly told that Minor Siefert
could not be discharged because she was not medically
cleared and HCJFS recommended against discharge to
the parents.
County Defendants note that, although Plaintiffs
allege they communicated with HCJFS and Children’s

App. 44
throughout the relevant time period that they wanted
Minor Siefert discharged, they do not allege that they
actually tried to remove Minor Siefert, that they made
written demands for her release, or that they filed a
grievance under the hospital policies that they received
upon Minor Siefert’s admission to Children’s, (Id. at
¶ 37; Doc. 12, Ex. B – Children’s Hospital Policy), or
made a written request for Release of Voluntary
Patients pursuant to O.R.C. § 5122.03. (Doc. 12 at 8–9).
County Defendants contend that if any of these steps
had been taken by the Plaintiffs, HCJFS would have
requested an emergency order from Hamilton County
Juvenile Court, but, pursuant to Ohio Juv. R. 6,
HCJFS was not allowed to seek an emergency order
while Minor Siefert as hospitalized at Children’s. Thus,
County Defendants argue that Plaintiffs inaction
amounts to implied consent to Minor Siefert continuing
to reside at Children’s, especially because Plaintiffs
placed Minor Siefert at Children’s out of concern for
her safety.
The Sixth Circuit’s decision in Smith v. WilliamsAsh, 520 F.3d 596 (6th Cir. 2008) is instructive here. In
that case, the defendant, an HCJFS employee, removed
the Smiths’ children from their home without affording
the Smiths a hearing. The defendant argued that the
Smiths consented, through a safety plan, to removal of
their children. The Sixth Circuit cited favorably to
Judge Posner’s reasoning in Dupuy v. Samuels, 465
F.3d 757 (7th Cir. 2006) in finding that “hearings are
required for deprivations taken over objection, not for
steps authorized by consent.” Id. at 761–62.

App. 45
Although Smith v. Williams-Ash differs in
important ways from this action – in particular, in that
case, the parents and HCJFS actually entered into a
voluntary safety plan, which did not occur here until
approximately four weeks after Plaintiffs sought Minor
Siefert’s discharge from Children’s – it is the precedent
with the most similar fact pattern to this matter. In
both cases, the parents’ initial action to relinquish
control of their children was voluntary, both set of
parents were provided with information necessary to
challenge the policies that deprived them of their
parental rights, both set of parents retained custody of
their children throughout the relevant time period, and
a hearing did not occur in either case.5 The Sixth
Circuit ultimately found that, because the Smiths
voluntarily consented to enter into the safety plan and
did not utilize the safety plan’s clear mechanisms for
rescinding the plan, the defendant provided the Smiths
with the process they were due. In that case, the court
did not even reach the issue of qualified immunity
because the appellate court found that the defendant
had not violated the Smiths’ procedural due process
rights.
Here, Plaintiffs are unable to meet their burden of
demonstrating that the County Defendants violated a
clearly established constitutional right. The Plaintiffs

5

Regarding the fact that a hearing never took place here, the
Court finds persuasive the County Defendants’ argument that,
pursuant to Ohio Juv. R. 6, HCJFS was not permitted to seek an
emergency custody order while Minor Siefert was safe at
Children’s. Plaintiffs have not challenged the constitutionality of
Ohio. Juv. R. 6.

App. 46
fail to cite any case law supporting their theory that a
social worker violates a parents’ procedural due process
rights (1) by not seeking a court custody order to
prevent parents from removing a child from the
hospital or (2) by investigating child abuse allegations
while a child is hospitalized. Considering the Sixth
Circuit’s finding in Smith v. Williams-Ash, this Court
cannot conclude that County Defendants have violated
a clearly established procedural due process right. The
County Defendants therefore are entitled to qualified
immunity on this claim.
c. Substantive Due Process
“Substantive due process ... serves the goal of
preventing governmental power from being used for
purposes of oppression, regardless of the fairness of the
procedures used.” Howard v. Grinage, 82 F.3d 1343,
1349 (6th Cir. 1996) (internal quotation marks
omitted). Substantive due process claims come in two
varieties: “(1) deprivations of a particular
constitutional guarantee; and (2) actions that ‘shock
the conscience.’” Pittman v. Cuyahoga Cnty. Dep’t of
Children & Family Servs., 640 F.3d 716, 728 (6th Cir.
2011) (internal quotation marks omitted).
Plaintiffs premise their substantive due process
claim on the deprivation of their right to familial
association, as discussed supra, so their claim is of the
first type. See Pittman, 640 F.3d 716, 728 n.6 (“where
the plaintiff, as here, alleges a violation of a recognized
liberty interest, in this case family integrity, the Court
applies a different substantive due process test, which
requires a compelling government interest and
narrowly tailored conduct.”)

App. 47
The Sixth Circuit has instructed courts to be
cognizant of the difficult choices that social workers
face in determining whether to interfere with the
custody rights of parents. “If they err in interrupting
parental custody, they may be accused of infringing the
parents’ constitutional rights. If they err in not
removing the child, they risk injury to the child and
may be accused of infringing the child’s rights.” Farley
v. Farley, 225 F.3d 658 (6th Cir. 2000) (quoting Van
Emrik v. Chemung County Dep’t of Soc. Servs., 911
F.2d 863, 866 (2d Cir. 1990). The Eighth Circuit
provides a helpful explanation for considering qualified
immunity for social workers accused of substantive due
process violations: “The need to continually subject the
assertion of this abstract substantive due process right
to a balancing test which weighs the interest of the
parent against the interests of the child and the state
makes the qualified immunity defense difficult to
overcome.” Thomason v. SCAN Volunteer Servs., Inc.,
85 F.3d 1365, 1371 (8th Cir. 1996).
Moreover, other circuits have noted that the
contours of the substantive due process right to familial
association is not clearly defined. See, e.g., Kiser v.
Garrett, 67 F.3d 1166, 1173 (5th Cir.1995) (“[A]lthough
a substantive due process right to family integrity has
been recognized, the contours of that right are not welldefined, and continue to be nebulous, especially in the
context of the state’s taking temporary custody of a
child during an investigation of possible parental
abuse.”); Frazier v. Bailey, 957 F.2d 920, 931 (1st
Cir.1992) (“We agree with other courts that while there
may be a due process right of ‘familial integrity’ of

App. 48
some dimensions, the dimensions of this right have yet
to be clearly established.”).
Here, it is clear that the County Defendants had a
compelling interest in the safety of Minor Siefert. As
discussed earlier, County Defendants were presented
with allegations that Plaintiffs had abused Minor
Siefert, that Minor Siefert was potentially suicidal, and
that doctors at Children’s had not medically cleared
Minor Siefert for discharge. Minor Siefert’s continued
stay at Children’s, with the Plaintiffs being allowed to
visit Minor Siefert at the direction of doctors, was a
narrowly tailored means of ensuring the safety of the
child. See Thomason, 85 F.3d at 1373 (finding no
substantive due process violation and explaining that
“[w]here a treating physician has clearly expressed his
or her reasonable suspicion that life-threatening abuse
is occurring in the home, the interest of the child (as
shared by the state as parens patriæ) in being removed
from that home setting to a safe and neutral
environment outweighs the parents’ private interest in
familial integrity as a matter of law.”).
As discussed supra, the fact pattern here is similar
to that in Smith v. Williams-Ash. In that case, the
Sixth Circuit found that the HCJFS defendant was
entitled to qualified immunity because plaintiffs failed
to allege a violation of their substantive due process
claims. Smith v. Williams-Ash, 173 Fed. Appx. 363, 367
(6th Cir. 2005). Here, Plaintiffs fail to point to any case
where social workers were found to have violated
parents’ substantive due process rights for telling
parents that a child should remain hospitalized at a
doctor’s recommendation. Plaintiffs cannot meet their

App. 49
burden of establishing a clearly established substantive
due process right that the County Defendants have
violated. Accordingly, keeping in mind the difficult
choices that social workers face, and the government’s
strong interest in the safety of Minor Siefert, the Court
finds that the County Defendants are entitled to
qualified immunity on Plaintiffs’ substantive due
process claim.
Because Plaintiffs fail to adequately allege a
constitutional violation by any of the HCJFS
employees, Plaintiffs claims against all of the County
Defendants, including the Hamilton County Board of
Commissioners, are dismissed. Grabow v. Cty. of
Macomb, 580 F. App’x 300, 312 (6th Cir. 2014) (“Absent
an underlying constitutional violation, [plaintiff’s]
claim against the county under § 1983 must also fail.”);
Wilson v. Morgan, 477 F.3d 326, 340 (6th Cir. 2007)
(“There can be no Monell municipal liability under
§ 1983 unless there is an underlying unconstitutional
act.”).
2. Federal and State Conspiracy Claims
Plaintiffs state that their federal conspiracy claim
is based on their constitutional interest in family
integrity on violations of procedural and substantive
due process pursuant to §1983. (Doc. 19 at 27). As
already discussed, Plaintiffs’ procedural and
substantive due process claims fail. Accordingly, their
federal conspiracy claim also fails.
Additionally, Plaintiffs cannot prevail on their civilconspiracy claim under Ohio law, which requires that
they allege (1) a malicious combination, (2) of two or

App. 50
more persons, (3) that caused injury to a person or
property, and (4) the existence of an underlying
wrongful act that is independent of the conspiracy.
Woodward Const., Inc. v. For 1031 Summit Woods,
L.L.C., 2015-Ohio-975, ¶ 21, 30 N.E.3d 237, 242 (Ohio
1st. Dist. 2015). Here, the alleged underlying wrongful
acts are Plaintiffs’ dismissed procedural and
substantive due process claims. Because there is no
cause of action for civil conspiracy without an
underlying unlawful action, see Bradley v. Miller, 96 F.
Supp. 3d 753, 767 (S.D. Ohio 2015) (“[a]n underlying
unlawful act is required before a civil conspiracy claim
can succeed.”), Plaintiffs’ state conspiracy claim fails.
IV.

CONCLUSION

Wherefore, for the reasons stated here:
1) The August 2, 2018 stay (Doc. 32) is hereby
LIFTED;
2) The County Defendants’ motion to dismiss (Doc.
12) is GRANTED;
3) Plaintiffs’ motion to alter judgment (Doc. 33) is
DENIED as moot.
The Clerk shall enter judgment accordingly,
whereupon this case is TERMINATED in this Court.
IT IS SO ORDERED.
Date: __11/15/18__

/s/ Timothy S. Black
Timothy S. Black
United States District Judge

App. 51

APPENDIX C
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF OHIO
WESTERN DIVISION AT CINCINNATI
Case No. 1:17-CV-511
[Filed: November 15, 2018]
_________________________________________
JOSEPH SIEFERT, et al.,
)
)
Plaintiff,
)
)
-vs)
)
HAMILTON COUNTY
)
BOARD OF COMMISSIONERS, et al.,
)
Defendant.
)
_________________________________________ )
JUDGMENT IN A CIVIL CASE
Jury Verdict.
This action came before the Court for a trial by jury.
The issues have been tried and the jury has
rendered its verdict.
X Decision by Court.
This action came to trial or hearing before the
Court. The issues have been tried or heard and a
decision has been rendered.

App. 52
IT IS ORDERED AND ADJUDGED
The August 2, 2018 stay (Doc. 32) is hereby LIFTED.
The County Defendants’ motion to dismiss (Doc. 12) is
GRANTED. Plaintiffs’ motion to alter judgment (Doc.
33) is DENIED as moot. This case is TERMINATED.

Date: November 15, 2018
RICHARD W. NAGEL, CLERK
By:s/Emily Hiltz
Emily Hiltz, Deputy Clerk

App. 53

APPENDIX D
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF OHIO
WESTERN DIVISION
Case No. 1:17-cv-511
Judge Timothy S. Black
[Filed: August 2, 2018]
______________________________________
JOSEPH SIEFERT, et al.,
)
)
Plaintiff,
)
)
vs.
)
)
HAMILTON COUNTY
)
BOARD OF COMMISSIONERS, et al.,
)
)
Defendants.
)
______________________________________ )
ORDER GRANTING COUNTY DEFENDANTS’
MOTION TO STAY PROCEEDINGS,
GRANTING CHILDREN’S DEFENDANTS’
MOTION TO DISMISS, AND DENYING
PLAINTIFFS’ MOTIONS TO FILE
SUPPLEMENTAL MEMORANDA

App. 54
This civil action is before the Court upon the
“County Defendants”’1 motion to dismiss Plaintiffs’
complaint or, in the alternative, stay proceedings (Doc.
12), the “Children’s Defendants”’2 motion to dismiss
Plaintiffs’ complaint (Doc. 13), the parties’ responsive
memoranda (Docs. 19, 20, 22, 26), Plaintiffs’ motions to
file supplemental memoranda (Docs. 24 and 27), and
the parties’ responsive memoranda (Docs. 25, 26, 28,
29, 30).
I.

FACTS AS ALLEGED BY THE PLAINTIFF

For purposes of this motion to dismiss, the Court
must: (1) view the complaint in the light most favorable
to Plaintiffs; and (2) take all well-pleaded factual
allegations as true. Tackett v. M&G Polymers, 561 F.3d
478, 488 (6th Cir. 2009).
This is a civil action for compensatory and punitive
damages, as well as injunctive relief. (Doc. 1, at 32).
Plaintiffs Joseph and Melissa Siefert (“Plaintiffs”) are

1

The “County Defendants” are Hamilton County, Hamilton
County Board of Commissioners (“BOCC”), Hamilton County Job
and Family Services (“HCJFS”), Moira Weir, Eric Young, and
Rachel Butler.
The Court notes that, under Ohio law, HCJFS and Hamilton
County are not sui juris and therefore cannot be sued. Estate of
Glenara Bates v. Hamilton Cty. Dep’t of Job & Family Servs., No.
1:15-cv-798, 2017 WL 106871, at *1 n.1 (S.D. Ohio Jan. 11, 2017).

2

The “Children’s Defendants” are Cincinnati Children’s Hospital
Medical Center (“Children’s”), Jennifer Bowden, M.D., Kimberly
Stephens, LISW, Ankita Zutshi, M.D., Daniel Almeida, M.D.,
Suzanne Sampang, M.D., and Lauren Heeney.

App. 55
residents of Ohio and the parents of Minor Siefert.3 (Id.
at ¶ 4). Plaintiffs allege that from November 23, 2016
to December 20, 2016, they were denied their
fundamental liberty interest in the care, custody,
control, companionship, and management of Minor
Siefert, as guaranteed by the Fourteenth Amendment.
(Id. at ¶¶ 96, 127).
In November 2015, the Plaintiffs learned that Minor
Siefert was suffering from depression, anxiety, and
suicidal ideations. (Id. at ¶ 24). The Plaintiffs had
Minor Siefert treated with therapy and medication
from their long-time pediatrician. (Id. at ¶¶ 24, 29). On
August 11, 2016, Minor Siefert informed Plaintiffs that
Minor Siefert considered Minor Seifert to be a
transgender child. (Id. at ¶ 25). Minor Siefert emailed
HCJFS on November 11, 2016 and informed HCJFS
that Minor Seifert was experiencing transgender
thoughts and that Plaintiffs were unsupportive and
abusive. (Id. at ¶ 26). On that same day, Defendant
Butler of HCJFS visited Plaintiffs’ home and asked
Mrs. Siefert questions regarding conditions in the
home. (Id. at ¶ 28). On November 13, Plaintiffs took
Minor Siefert to Children’s Liberty Township location
for psychological evaluation regarding suicidal
ideations. (Id. at ¶ 30). Minor Siefert was ultimately
transferred to Children’s psychiatry facility at the
College Hill location. Plaintiffs went to visit Minor
Siefert at Children’s College Hill facility on November
15, and received a welcome package that included
information regarding Children’s policies and
3

Due to privacy concerns regarding the child at issue, Plaintiffs’
child will be referred to as “Minor Siefert.”

App. 56
guidelines. (Id. at ¶¶ 36–37). Plaintiffs allege that the
welcome packet did not include a nineteen-page
document titled “Psychiatry Impatient Admission, A
Family Guide,” which stated that Children’s could tell
parents that they were not to take their child home if
Children’s found it unsafe for the child. (Id. at
¶¶ 38–39). Plaintiffs allege that they were not told of
this policy at the time Minor Siefert was admitted. (Id.
at ¶ 40).
Over the next few weeks, Plaintiffs consulted with
HCJFS regarding Minor Siefert’s treatment. (Id. at
¶ 41). At Plaintiffs’ first conference with Defendant
Butler, she explained to Plaintiffs that Children’s
would not send Minor Siefert home without permission
from HCJFS, and if Plaintiffs could not take care of
Minor Siefert, HCJFS “would step in and do it.” (Id. at
¶ 42). Plaintiffs claim they did not “agree to allow
[Children’s] and HCJFS to keep Minor Siefert at
Children’s without their consent. (Id. at ¶ 47).
On November 22, Defendant Dr. Zutshi met with a
doctor from Humana Behavioral Health (“Humana”),
the insurance provider for Minor Siefert’s treatment, to
present Minor Siefert’s case. (Id. at ¶¶ 46, 51). Based
on the meeting with Dr. Zutshi, Humana determined
that Minor Siefert “had no acute symptoms that
require 24 hour care (sic) . . . [Minor Siefert] is not a
danger to [Minor Seifert] or others. [Minor Siefert] is
not aggressive. [Minor Siefert] is medically stable.
[Minor Siefert] is not manic.” Based on this finding,
Humana denied coverage for further treatment of
Minor Seifert by Children’s. (Id. at ¶ 52).

App. 57
On that same day, Plaintiffs met with Defendant
Stephens of Children’s regarding Minor Siefert’s
discharge. Plaintiffs allege that Butler and Minor
Siefert were supposed to attend the meeting, however
Stephens told Plaintiffs that Butler would not be
available until November 28. (Id. at ¶¶ 53–54).
Plaintiffs complain that Butler was available in fact
and was in regular telephone contact with Stephens
and met with Minor Siefert on November 23. (Id. at
¶¶ 55–57).
Plaintiffs contend that starting November 23, Mr.
Siefert began leaving voicemail messages with
Children’s and left calls with HCJFS attempting to
have Minor Siefert discharged from Children’s to the
Plaintiffs. (Id. at ¶¶ 60, 61). Eventually, Stephens
allegedly spoke with Mr. Siefert by telephone and
informed him that Minor Siefert could not be
discharged because Minor Siefert was not “medically
cleared” and that Mr. Siefert would have to contact
HCJFS to obtain Minor Siefert’s discharge. (Id.
¶¶ 64–65). Plaintiffs allege that on that same day, a
Children’s doctor wrote in his notes that “JFS gave
clear recommendations to not allow patient to be
discharged to parents.” (Id. at ¶ 67). While HCJFS
allegedly told Plaintiffs that it was “actively pursuing”
the case throughout the relevant time period, HCJFS
never attempted to obtain a court order of custody. (Id.
at ¶ 59).
On November 28, Plaintiffs, HCJFS, and Children’s
held another meeting to discuss Minor Siefert’s
discharge. (Id. at ¶¶ 69–77). During this meeting, Mr.
Siefert asked what the Plaintiffs had to do to have

App. 58
Minor Siefert discharged, and Butler responded, “[i]t
does not work that way,” and that when Plaintiffs
cannot take care of their child, HCJFS has to “step in.”
(Id. at ¶¶ 71–72). In response, Mr. Siefert allegedly
demanded that Minor Siefert be discharged and argued
that he could go down the hall and take Minor Siefert
home, but Stephens informed the Plaintiffs that was
not allowed. (Id. at ¶ 74).
Plaintiffs had another meeting with Butler and
Young of HCJFS on November 30. (Id. at ¶¶ 87–91).
Young explained HCJFS’s policy preventing parents
from having custody or association with their children
when Children’s or HCJFS does not approve of
releasing the child to the parents, even without the
parents’ consent or a court order, and that HCJFS has
to “go by what the doctors say.” (Id. at ¶ 90).
Ultimately, Minor Siefert did not leave Children’s until
December 20, 2016 when HCJFS and Plaintiffs entered
into a voluntary “Safety Plan” releasing Minor Siefert
to their maternal grandparents. (Id. at ¶ 96).
II.

PLAINTIFFS’ MOTIONS TO FILE
SUPPLEMENTAL MEMORANDA

First, the Court must determine if it will consider
Plaintiffs’ supplemental memoranda (Docs. 24-1, 27-1)
in considering Defendants’ motions to dismiss. (Docs.
12, 13).
Plaintiffs have filed two motions to file
supplemental memoranda in opposition to Defendants’
motions to dismiss, with the proposed supplemental
memoranda attached. The Local Rules of the Southern
District of Ohio prohibit the filing of additional

App. 59
memoranda beyond the standard motion, response, and
reply unless the movant shows good cause. S.D. Ohio
Civ. R. 7.2. Good cause exists “to permit a party to file
a sur-reply to address an issue raised for the first time
in a reply brief.” Geiger v. Pfizer, Inc., 271 F.R.D. 577,
580 (S.D. Ohio 2010).
Plaintiffs argue there is good cause to supplement
the record because Defendants purportedly raised four
new legal arguments in their motion to dismiss reply
memoranda: (1) the County Defendants argued that
Plaintiffs did not use certain pleading terms; (2) the
County Defendants raised new arguments related to
the Younger abstention; (3) the Children’s Defendants
argued that they are entitled to qualified immunity;
and (4) the Children’s Defendants raised new
arguments related to state-actor status for private
defendants. (Doc. 24, at 2). But Plaintiffs’ argument is
without merit. The Defendants’ reply briefs (Docs. 20,
22) simply distinguish case law and respond to
arguments made by Plaintiffs in their opposition brief
(Doc. 19) to the motions to dismiss.
Accordingly, Plaintiffs have failed to demonstrate
the existence of good cause to support their motions to
file supplemental memoranda. Plaintiffs’ motions
(Docs. 24, 27) are, therefore, DENIED.
III.

STANDARD OF REVIEW

A motion to dismiss pursuant to Fed. R. Civ. P.
12(b)(6) operates to test the sufficiency of the complaint
and permits dismissal of a complaint for “failure to
state a claim upon which relief can be granted.” To
show grounds for relief, Fed. R. Civ. P. 8(a) requires

App. 60
that the complaint contain a “short and plain
statement of the claim showing that the pleader is
entitled to relief.”
While Fed. R. Civ. P. 8 “does not require ‘detailed
factual allegations,’ . . . it demands more than an
unadorned, the-defendant-unlawfully-harmed-me
accusation.” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009)
(citing Bell Atl. Corp. v. Twombly, 550 U.S. 544 (2007)).
Pleadings offering mere “‘labels and conclusions’ or ‘a
formulaic recitation of the elements of a cause of action
will not do.’” Id. (citing Twombly, 550 U.S. at 555). In
fact, in determining a motion to dismiss, “courts ‘are
not bound to accept as true a legal conclusion couched
as a factual allegation[.]’” Twombly, 550 U.S. at 555
(citing Papasan v. Allain, 478 U.S. 265 (1986)).
Further, “[f]actual allegations must be enough to raise
a right to relief above the speculative level[.]” Id.
Accordingly, “[t]o survive a motion to dismiss, a
complaint must contain sufficient factual matter,
accepted as true, to ‘state a claim to relief that is
plausible on its face.’” Iqbal, 556 U.S. at 678. A claim is
plausible where a “plaintiff pleads factual content that
allows the court to draw the reasonable inference that
the defendant is liable for the misconduct alleged.” Id.
Plausibility “is not akin to a ‘probability requirement,’
but it asks for more than a sheer possibility that a
defendant has acted unlawfully.” Id. “[W]here the wellpleaded facts do not permit the court to infer more than
the mere possibility of misconduct, the complaint has
alleged—but it has not ‘show[n]’—‘that the pleader is
entitled to relief,’” and the case shall be dismissed. Id.
(citing Fed. R. Civ. P. 8(a)(2)).

App. 61
When faced with a threshold question of whether to
apply the Younger abstention doctrine as raised by the
County Defendants, a court must first address the
abstention issue before engaging in analysis on the
merits of the case. Tenet v. Doe, 544 U.S. 1, 6, n.4
(2005); Steel Co. v. Citizens for Better Environment, 523
U.S. 83, 100, n. 3 (1998).
IV.

ANALYSIS

Plaintiffs assert five causes of action, claiming
Defendants: (1) violated 42 U.S.C. § 1983 by depriving
Plaintiffs of their Fourteenth Amendment procedural
due process rights (Count I); (2) violated 42 U.S.C.
§ 1983 by depriving Plaintiffs of their Fourteenth
Amendment procedural substantive due process rights
(Count II); (3) committed federal civil conspiracy
(Count III); (4) committed Ohio civil conspiracy (Count
IV); and (5) violated Plaintiffs’ Fourteenth Amendment
Due Process Clause and should be enjoined from any
further such conduct (Count V). The County
Defendants have moved to dismiss Plaintiffs’ complaint
or, in the alternative, to stay the proceedings. The
Children’s Defendants have moved to dismiss
Plaintiffs’ complaint. The Court will analyze each
motion in turn.
A. County Defendants’ motion to dismiss
or, in the alternative, stay proceedings
The County Defendants move to dismiss all claims,
or seek a stay of the proceedings under the Younger
abstention doctrine. See Younger v. Harris, 401 U.S. 37
(1971). The Court must first consider abstention under

App. 62
Younger to determine if it is appropriate to analyze the
merits of the County Defendants’ motion to dismiss.
The Younger abstention doctrine restricts federal
district courts from deciding a claim that falls within
the jurisdiction of the state courts where there is no
evidence that “a definitive ruling in the state courts
cannot be pursued with full protection of the
constitutional claim[.]” Railroad Comm’n of Tex. v.
Pullman Co., 312 U.S. 496, 501 (1941). Although
Younger abstention initially pertained to federal courts
interfering with state criminal prosecutions, the
Supreme Court clarified that abstention may also be
warranted in civil enforcements, including family law
cases. See Moore v. Sims, 442 U.S. 415, 434–35 (1979).
In the Sixth Circuit, abstention pursuant to the
Younger doctrine is appropriate when a state
proceeding “(1) is currently pending, (2) involves an
important state interest, and (3) affords the plaintiff an
adequate opportunity to raise constitutional claims.”
Eidson v. State of Tenn. Dept. of Children’s Services,
510 F.3d 631, 639 (6th Cir. 2007) (quoting Coles v.
Granville, 448 F.3d 853, 865 (6th Cir. 2006)). The Sixth
Circuit recognizes exceptions to Younger in which
abstention is not required “such as bad faith,
harassment, or flagrant unconstitutionality.” Fieger v.
Thomas, 74 F.3d 740, 750 (6th Cir. 1996).
1. First Younger requirement: ongoing
state judicial proceedings
The first Younger requirement is satisfied if a state
proceeding is pending at the time the federal action is
initiated. Zalman v. Armstrong, 802 F.2d 199, 202 (6th

App. 63
Cir. 1986). Here, the state proceedings involving
Plaintiffs and HCJFS4 were filed on February 8, 2017,
almost six months before the Plaintiffs filed the
complaint in this action. (See Doc. 19, at 42; Doc. 22, at
16). As of the filing of the briefs at issue, there has been
no resolution to the juvenile proceedings. Therefore,
the first Younger requirement has been met.
2. Second Younger requirement: important
state interest
The second Younger requirement is satisfied if the
pending state proceedings implicate an important state
interest. Tindall v. Wayne Cty. Friend of Court, 269
F.3d 533, 538 (6th Cir. 2001). The Sixth Circuit has
found that family law matters implicate important
state interests. See Furr-Barry v. Underwood, 59 Fed.
Appx. 796, 796–97 (6th Cir. 2003) (requiring abstention
where an ongoing custody action in juvenile court
implicated important state interests); Meyers v.
Franklin Cty. Court of Common Pleas, 23 Fed. Appx.
201, 204–05 (6th Cir. 2001) (finding second
requirement for Younger abstention met because child
welfare and protection is an important state interest).
Here, there are proceedings related to the custody and
medical treatment of Minor Siefert. (Doc. 12, at 16;
Doc. 19, at 45). Important state interests are

4

The County Defendants note that even though state court
proceedings are between Plaintiffs and HCJFS, not the BOCC,
HCJFS is a division under the BOCC. Thus, suing HCJFS is the
same as suing Defendant Weir or the BOCC in their official
capacities. (Doc. 22, at 18 (citing Lambert v. Clancy, 125 Ohio St.
3d 231, 927 N.E.2d 585 (2010))).

App. 64
implicated in those proceedings. Therefore, the second
Younger requirement has been met.
3. Third Younger requirement: adequate
opportunity to raise constitutional
challenges
The third Younger requirement is satisfied if the
pending state proceeding provides the plaintiff with an
adequate opportunity to raise federal constitutional
claims. Squire v. Coughlan, 469 F.3d 551, 556 (6th Cir.
2006). “Abstention is appropriate unless state law
clearly bars the interposition of the constitutional
claims. The plaintiff bears the burden of showing that
state law bar[s] presentation of his or her
constitutional claim.” Id. (citation and quotation marks
omitted).
First, Plaintiffs argue that the juvenile proceedings
do not offer an adequate opportunity to raise
constitutional challenges because the federal
constitutional claims are “collateral” to the to the state
juvenile court proceedings. (Doc. 19, at 46–47). This
argument is unavailing.
Plaintiffs rely on Habich v. City of Dearborn, 331
F.3d 524 (6th Cir. 2003), in which the plaintiff brought
claims against the defendant for violating her
constitutional rights by (1) refusing to sell plaintiff a
vacant lot, while selling a similar lot to her neighbor
and (2) padlocking plaintiff’s home without warning.
Habich, 331 F.3d at 527. The state proceedings
between plaintiff and defendant, however, only related
to whether plaintiff had improperly rented out her
home. Id. at 530–31. The Sixth Circuit found that

App. 65
Younger did not require abstention in this case because
the constitutional issues raised by the plaintiff were
“collateral” to the issues in the state proceeding. Id.
The Court of Appeals found that Younger abstention
was inapplicable because “the issues in [plaintiff’s]
federal suit could neither be proven as part of the state
case-in-chief nor raised as an affirmative defense.” Id.
at 531.
Yet here, the custody of Minor Siefert is at the heart
of both the federal claims and the state proceedings.
Count IV of Plaintiffs’ complaint asks the Court to
declare Defendants’ “conduct of denying parents their
liberty interest” in Minor Siefert to be a Fourteenth
Amendment Due Process violation and to “enjoin
further such conduct.” The custody issues being
addressed by the juvenile court are in no way collateral
to the claims before the Court. Thus, Plaintiffs’ first
argument that constitutional issues could not be
addressed adequately in the state proceeding fails.
Second, Plaintiffs argue that they are procedurally
barred from bringing constitutional issues in the
juvenile court. (Doc. 19, at 47–48). In Ohio juvenile
court, the Ohio Rules of Juvenile Procedure apply,5

5

Plaintiffs state, without any support, that none of the exceptions
to the Ohio Rules of Juvenile Procedure, which would require
applying the Ohio Rules of Civil Procedure, apply to this case.
(Doc. 19, at 47 n.1). However, the Supreme Court of Ohio has
discussed the applicability of the Ohio Rules of Civil Procedure in
custody proceedings and stated that the Rules of Civil Procedure
“apply to custody proceedings in juvenile court except when they
are clearly inapplicable.” In re H.W., 114 Ohio St.3d 65, 2007-Ohio2879, 868 N.E.2d 261, ¶ 11 (2007). Plaintiffs provide no argument

App. 66
which only allow for a party to file a complaint or
answer, Ohio R. Juv. P. 22(A), (C), purportedly making
it impossible for Plaintiffs to raise constitutional
issues. However, as the Sixth Circuit explained in
Habich, a state proceeding is an inadequate forum to
hear constitutional claims if a party cannot present
their constitutional claims as a part of its case-in-chief
or as an affirmative defense. 331 F.3d at 531. Here,
Plaintiffs do not explain why they are unable to raise
their constitutional claims as an affirmative defense.
Plaintiffs have not met their burden to demonstrate
that they cannot assert their constitutional claims in
the juvenile court proceedings. Thus, Plaintiffs’ second
argument fails.
Moreover, the Supreme Court and Sixth Circuit
have found that juvenile courts provide an adequate
opportunity to raise constitutional issues. See Moore,
442 U.S. at 418–20 (requiring Younger abstention
where parents had the opportunity to challenge the
constitutionality of the Texas Family Code that
permitted the removal of their children following
allegations of child abuse in juvenile court); Meyers, 23
Fed. Appx. at 205–06 (finding that parents had an
adequate opportunity to challenge the constitutionality
of removing a child from the parents’ home pending a
merit hearing in juvenile court). The Sixth Circuit has

why the Ohio Rules of Civil Procedure are clearly inapplicable in
the state proceeding. Nevertheless, the Court need not examine
whether the Ohio Rules of Juvenile Procedure or Ohio Rules of
Civil Procedure apply in the state proceeding in order to determine
that Plaintiffs can adequately raise constitutional claims in the
state proceedings.

App. 67
also noted that “Ohio has an ‘open courts provision’
found in Article 1, § 16 of the Ohio Constitution.” Kelm
v. Hyatt, 44 F.3d 415, 420 (6th Cir. 1995). An “‘open
court provision’ provides that all courts shall be open,
and remedies provided, to all injured persons.” Id. Like
in Kelm, the current state proceedings against the
Plaintiffs have given this Court no reason to question
their adequacy in addressing Plaintiffs’ constitutional
issues. Therefore, the third Younger requirement has
been met.
4. Younger exceptions
Here, Plaintiffs do not allege the state court
proceedings are being administered in bad faith, with
harassment, or are flagrantly unconstitutional. Fieger,
74 F.3d at 750. Instead Plaintiffs state that the
“juvenile court is providing a neutral decision-maker.”
(Doc. 19, at 43). Thus, none of the Younger exceptions
are applicable.
All three elements necessary for abstention under
Younger have been met. Because Plaintiffs seek
declaratory relief, injunctive relief, and damages, it is
appropriate for the Court to STAY proceedings pending
the conclusion of the state court proceedings. See Gray
v. Bush, 628 F.3d 779, 785 (6th Cir. 2010) (“In the
context of a complaint seeking ‘both equitable [relief]
and money damages,’ ... ‘a federal court’s discretion to
abstain from exercising jurisdiction does not extend so
far as to permit a court to dismiss or remand, as
opposed to stay, an action at law.’”)

App. 68
B. Children’s Defendants’ motion to dismiss
Unlike the County Defendants, the Children’s
Defendants have not argued that the Younger
abstention applies to Plaintiffs’ claims and have only
presented arguments related to their motion to
dismiss. While Younger would require abstention if
ruling on the motion to dismiss interfered with the
state proceedings, the Court is able to analyze the
Children’s Defendants’ motion to dismiss without
considering the merits of the family law issues
implicated in the state proceedings. See Alexander v.
Rosen, 804 F.3d 1203, 1207 (6th Cir. 2015) (“[Plaintiff]
raises federal questions that do not entangle us in the
merits of the state child support proceedings, and
accordingly we may answer them without treading on
protected state interests.”).
The Children’s Defendants argue that Plaintiffs’
complaint fails to set forth a claim under § 1983, and
thus all five counts in the complaint fail. (Doc. 13, at 6,
14–15). In order to adequately plead a violation of
§ 1983, Plaintiffs must show that (1) a person acting
under color of state law (2) deprived them of their
rights secured by the United States Constitution or its
laws. Waters v. City of Morristown, 242 F.3d 353, 35859 (6th Cir. 2001). Here, the Court can examine
whether the Children’s Defendants acted under the
color of state law without analyzing whether the
Plaintiffs were deprived of their constitutional rights.

App. 69
1. Children’s Defendants were not acting
under color of state law
Claims under § 1983 are not viable against private
defendants unless they acted under color of state law,
no matter how discriminatory or wrong their private
conduct may have been. American Mfrs. Mut. Ins. Co.
v. Sullivan, 526 U.S. 40, 50 (1999) (citing Blum v.
Yaretsky, 457 U.S. 991, 1002 (1982)). “Only in rare
circumstances can a private party be viewed as a ‘state
actor’ for section 1983 purposes.” Harvey v. Harvey, 949
F.2d 1127, 1130 (11th Cir. 1992).
The Sixth Circuit uses three tests to determine
whether the action of a private party is fairly
attributable to the state: (1) the public function test,
(2) the state compulsion test, and (3) the symbiotic
relationship or nexus test. Wolotsky v. Huhn, 960 F.2d
1331, 1335 (6th Cir.1992). The public function test
“requires that the private entity exercise powers which
are traditionally exclusively reserved to the state.” Id.
The state compulsion test “requires that a state
exercise such coercive power or provide such significant
encouragement, either overt or covert, that in law the
choice of the private actor is deemed to be that of the
state.” Id. Under the symbiotic relationship test, “the
action of a private party constitutes state action when
there is a sufficiently close nexus between the state and
the challenged action of the regulated entity so that the
action of the latter may be fairly treated as that of the
state itself.” Id. Plaintiffs bear the burden to prove the
state action tests apply. See Ellison v. Garbarino, 48
F.3d 192, 196 (6th Cir. 1995)

App. 70
The Plaintiffs argue that Children’s actions are
attributable to the state under the state compulsion
test and the symbiotic relationship test.
a. State compulsion test
Plaintiffs argue that the actions of the Children’s
Defendants satisfy the state compulsion test because
HCJFS “exercised such coercive power and/or provided
such significant encouragement that the actions by
[Children’s Defendants] would be deemed to be that of
the state.” (Doc. 19, at 52–53). Plaintiffs allege that the
County Defendants’ coercive power over the Children’s
Defendants was demonstrated by (1) Children’s
informing Plaintiffs that Children’s could not take any
steps to discharge Minor Siefert without conferring
with HCJFS (Doc. 1 ¶¶ 53–55, 66–67); (2) HCJFS and
Children’s discussing Minor Siefert’s potential
discharge over the telephone (id. at ¶ 63); (3) a
Children’s doctor ordering that Minor Siefert not be
discharged, consistent with the policy that parents
should be prevented custody when the Children’s
doctors or HCJFS officials do not approve of releasing
the child do the parents (id. at ¶¶ 90–93); and (4) a
Children’s Defendant telling Plaintiffs that HCJFS
“holds the key in determining where patient goes at
this time.” (Id. at ¶ 95).
Plaintiffs contend that the allegedly coercive power
exerted over the Children’s Defendants was similar to
circumstances where the Sixth Circuit found that a
private vehicle repossession became a state action
when police officers were actively involved. Hensley v.
Gassman, 693 F.3d 681 (6th Cir. 2012). However,

App. 71
Hensley is not analogous to the facts alleged before this
Court.
In Hensley, the Sixth Circuit found that when a
police officer assists a private party repossess property
with actions that go beyond peacekeeping, the
repossession generally becomes a state action. Id. at
687–93. Applying Hensley to the case before this Court,
HCJFS officials would need to be construed as
equivalent to the police officers who were involved in
the vehicle repossessions that the court considered a
state action. However, whether HCJFS and the County
Defendants were state actors is not at issue here;
instead at issue is whether the Children’s Defendants
were state actors. In Hensley, the Sixth Circuit did not
find that the private defendant involved in the vehicle
repossession was a state actor due to police officer
involvement. Hensley does not support the argument
that the Children’s Defendants were state actors under
the state compulsion test.
In contrast, the Children’s Defendants argue that
they were not compelled by the County Defendants, but
instead were simply performing medical treatment and
complying with Ohio reporting statutes related to the
child abuse that Minor Siefert alleged against the
Plaintiffs. (Doc. 1 at ¶¶ 26–27, 30). That reporting
statute provides:
If a health care professional provides health care
services in a hospital, children’s advocacy center,
or emergency medical facility to a child about
whom a report has been made . . . the health
care professional may take any steps that are
reasonably necessary for release or discharge of

App. 72
the child to an appropriate environment. Before
the child’s release or discharge, the health care
professional may obtain information, or consider
information obtained, from other entities or
individuals that have knowledge about the child.
R.C. § 2151.421(D)(3).
Generally, when private medical professionals
comply with state statutes, it does not turn their
actions into state actions. See Ellison v. Garbarino, 48
F.3d 192 (6th Cir. 1995) (finding that a private
physician’s decision to admit a patient pursuant to a
state involuntary commitment statute was not made
under color of state law); Harville v. Vanderbilt
University, Inc., 95 Fed. Appx. 719, 726 (6th Cir. 2003)
(ruling that private physicians were not acting under
color of state law in reporting to child welfare agency);
Blythe v. Schlievert, 245 F. Supp. 3d 959, 968 (finding
that private physicians did not become state actors by
fulfilling duty to report suspected child abuse); Haag v.
Cuyahoga County, 619 F. Supp. 262, 283 (N.D. Ohio
1985) (licensed psychologist who had mandatory duty
under state statute to report child neglect and/or abuse
was not a state actor), aff’d, 798 F.2d 1414 (6th Cir.
1986).
Plaintiffs neither allege plausible facts that the
Children’s Defendants were compelled or coerced by
the County Defendants nor cite to case law where
similarly situated defendants have been considered
state actors under the state compulsion test. Instead,
the alleged facts suggest the Children’s Defendants
were conforming their conduct to provide Minor Siefert
with medical care and to comply with state statutes.

App. 73
Plaintiffs fails to meet their burden to show that the
state compulsion test is satisfied.
b. Symbiotic relationship test
Plaintiffs argue that “there was a sufficiently close
nexus or pervasive entwinement between HCJFS and
the Children’s [Hospital] employees so that their
conduct was fairly attributable to the state.” (Doc. 19,
at 54). Plaintiffs allege that Children’s and HCJFS had
a symbiotic relationship because (1) Children’s had a
written policy of not allowing parents to take their
children home if that was deemed unsafe, and
Plaintiffs allege that this was the same policy as
HCJFS’ (Doc. 1 at ¶ 39); (2) HCJFS told Plaintiffs that
Children’s would not release Minor Siefert without
permission from HCJFS (id. at ¶ 42); (3) Children’s
said there was nothing it could do regarding Minor
Siefert’s discharge without HCJFS’ agreement (id. at
¶¶ 55, 93); and (4) Children’s collaborated with HCJFS
to deny Plaintiffs custody of Minor Siefert. (Id. at ¶ 94).
Plaintiffs rely on Norris v. Premier Integrity Sols.
Inc., 641 F.3d 695 (6th Cir. 2011) to argue that
Children’s and HCJFS had a symbiotic relationship.
However, Norris is easily distinguished from this case.
In Norris, Premier, a private entity, conducted drug
testing for criminal defendants participating in pretrial
release. The Sixth Circuit found that, because Premier
was contracted by the state, to perform actions
traditionally performed by the state, and the state
approved Premier’s policies and methods before the
testing, Premier was acting under color of state law. Id.
at 697–98.

App. 74
Unlike Norris, Children’s actions were not done
while contracted by the state, Children’s did not
perform actions traditionally performed by the state,
and Children’s policies and methods were not approved
by the state in advance. Here, like in Ellison, the
Children’s Defendants are private physicians and a
private hospital and “are in no way contractually bound
to the state.” 48 F.3d at 197 (affirming summary
judgment because defendants were not state actors). In
fact, the symbiotic relationship test is not even
satisfied when private doctors have been contracted by
the state to perform medical services as long as the
doctors act independently. Collyer v. Darling, 98 F.3d
211, 232 (6th Cir. 1996). Plaintiffs allege no facts
indicating that the Children’s Defendants did not
independently evaluate and treat Minor Siefert.
Plaintiffs cite no cases to support their proposition
that private physicians and a private hospital become
state actors under the symbiotic relationship test when
they provide medical care to a minor patient reportedly
suffering from child abuse and comply with state
statutes regarding their medical treatment. Plaintiffs
fail to meet their burden in regard to the symbiotic
relationship test.
Plaintiffs have not satisfied any of the state actor
tests. Thus, Plaintiffs’ conclusory allegations that the
Children’s Defendants acted under color of state law
are insufficient under Iqbal and Twombly to state a
plausible basis for finding state action.
Because Plaintiffs do not adequately plead the first
prong of a § 1983 violation, both Plaintiffs’ procedural
and substantive due process claims are DISMISSED

App. 75
against the Children’s Defendants. (Counts I, II, and
V). Moreover, because there is no cause of action for
civil conspiracy without an underlying unlawful action,
see Bradley v. Miller, 96 F. Supp. 3d 753, 767 (S.D.
Ohio 2015) (“An underlying unlawful act is required
before a civil conspiracy claim can succeed.”), Plaintiffs’
federal and Ohio civil conspiracy claims (Counts III and
IV) are also DISMISSED.
If, on any appeal, it is determined that the
Children’s Defendants were acting under color of state
law, the Court finds that it would be appropriate to
stay claims against the Children’s Defendants under
Younger. As discussed supra, all three Younger
elements necessary for abstention have been met and
allowing claims to proceed against the Children’s
Defendants would interfere with ongoing state
proceedings.
V.

CONCLUSION

Wherefore, for the reasons stated above, Plaintiffs’
motions to supplement memoranda (Docs. 24 and 27)
are DENIED. The Children’s Defendants’ motion to
dismiss (Doc. 13) is GRANTED. As to the County
Defendants’ motion to dismiss or stay proceedings (Doc.
12), Younger abstention is proper in this case, and this
Court hereby STAYS the current action and
ABSTAINS from exercising jurisdiction at this time.
IT IS SO ORDERED.
Date: __8/2/18__

/s/ Timothy S. Black
Timothy S. Black
United States District Judge

App. 76

APPENDIX E
No. 18-4179
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
[Filed: April 23, 2020]
__________________________________________
JOSEPH SIEFERT; MELISSA SIEFERT,
)
)
Plaintiffs-Appellants,
)
v.
)
)
HAMILTON COUNTY;
)
BOARD OF HAMILTON
)
COUNTY COMMISSIONERS;
)
HAMILTON COUNTY DEPARTMENT
)
OF JOB AND FAMILY SERVICES;
)
MOIRA WEIR; ERIC YOUNG;
)
RACHEL BUTLER;
)
CINCINNATI CHILDREN’S HOSPITAL
)
MEDICAL CENTER;
)
JENNIFER BOWDEN, M.D.;
)
KIMBERLEY STEPHENS, LISW;
)
ANKITA ZUTSHI, M.D.;
)
DANIEL ALMEIDA, M.D.;
)
SUZANNE SAMPANG, M.D.;
)
LAUREN HEENEY,
)
)
Defendants-Appellees.
)
__________________________________________)

App. 77
ORDER
BEFORE: SILER, BATCHELDER, and DONALD,
Circuit Judges.
The court received two petitions for rehearing en
banc. The original panel has reviewed the petitions for
rehearing and concludes that the issues raised in the
petitions were fully considered upon the original
submission and decision of the case. The petitions then
were circulated to the full court. No judge has
requested a vote on the suggestion for rehearing en
banc.
Therefore, the petitions are denied.

ENTERED BY ORDER OF THE COURT
/s/ Deborah S. Hunt
Deborah S. Hunt, Clerk

